<html>
<title> - NOMINATIONS TO THE DEPARTMENT OF COMMERCE, TRANSPORTATION SECURITY ADMINISTRATION, AND DEPARTMENT OF TRANSPORTATION</title>
<body><pre>[Senate Hearing 109-238]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-238
 
                   NOMINATIONS TO THE DEPARTMENT OF 
                   COMMERCE, TRANSPORTATION SECURITY 
            ADMINISTRATION, AND DEPARTMENT OF TRANSPORTATION

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 16, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                 U.S. GOVERNMENT PRINTING OFFICE

25-474                 WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001









       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMint, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director


















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 16, 2005....................................     1
Statement of Senator Allen.......................................     1
Statement of Senator Hutchison...................................    12
Statement of Senator Inouye......................................     2
    Prepared statement...........................................     2
Statement of Senator Pryor.......................................    18
Statement of Senator Stevens.....................................     1

                               Witnesses

Hawley, Edmund S. ``Kip'', Nominee to be Assistant Secretary of 
  Homeland Security, Transportation Security Administration......    17
    Prepared statement...........................................    21
    Biographical information.....................................    22
Hernandez, Israel, Nominee to be Assistant Secretary for Trade 
  Promotion and Director General, United States and Foreign 
  Commercial Service, 
  Department of Commerce.........................................    12
    Prepared statement...........................................    13
    Biographical information.....................................    14
Jeffrey, Dr. William, Nominee to be Director of the National 
  Institute of Standards and Technology (NIST), Department of 
  Commerce.......................................................     3
    Prepared statement...........................................     4
    Biographical information.....................................     5
Kaveeshwar, Dr. Ashok, Nominee to be Administrator of the 
  Research and Innovative Technology Administration (RITA), 
  Department of Transportation...................................    25
    Prepared statement...........................................    27
    Biographical information.....................................    28

                                Appendix

Airforwarders Association, prepared statement....................    39
Bolen, Ed, President and CEO, National Business Aviation 
  Association, Inc., letter, dated June 14, 2005 to Hon. Ted 
  Stevens........................................................    38
Faberman, Edward P., Executive Director, Air Carrier Association 
  of America, letter, dated June 14, 2005 to Hon. Ted Stevens....    38
Priddy, Ronald N., President, National Air Carrier Association, 
  Inc., letter, dated June 17, 2005 to Hon. Ted Stevens and Hon. 
  Daniel K. Inouye...............................................    39
Response to Written Questions Submitted to Edmund S. ``Kip'' 
  Hawley by:
    Hon. Barbara Boxer...........................................    35
    Hon. Daniel K. Inouye........................................    33
    Hon. Frank R. Lautenberg.....................................    35
















  NOMINATIONS TO THE DEPARTMENT OF COMMERCE, TRANSPORTATION SECURITY 
            ADMINISTRATION, AND DEPARTMENT OF TRANSPORTATION

                              ----------                              


                        THURSDAY, JUNE 16, 2005

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:15 p.m. in room 
SR-253, Russell Senate Office Building, Hon. Ted Stevens, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. We've been delayed because of the 
Appropriations Committee--a Homeland Security bill has just 
been reported out--and also by two votes on the floor. I 
apologize to those who've been waiting.
    William Jeffrey had been nominated to be the Director of 
the National Institute of Standards and Technology of the 
Department of Commerce. I understand that Senator Hutchison was 
here. He is joined by Senator Allen, who will introduce Mr. 
Jeffrey to the Committee. Before he does, Mr. Jeffrey, do you 
have family with you today that you would like to introduce for 
the record?
    Dr. Jeffrey. Yes, I do. Thank you very much. I have two 
nieces, Courtney and Jennifer, who are sitting here, as well as 
several friends. And if Representative Ehlers were here, he 
would be proud to know they were from the State of Michigan.
    The Chairman. Well, thank you for accompanying Mr. Jeffrey.
    Senator Allen?

                STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Thank you, Mr. Chairman.
    It is my pleasure to present to the Committee Dr. William 
Jeffrey, of Herndon, Virginia, who's been nominated by the 
President to be the Director of the National Institute of 
Standards and Technology.
    It's good to have your nieces here. Michigan was once a 
part of Virginia.
    [Laughter.]
    Senator Allen. To give you all a little history lesson 
here.
    At any rate, we're honored that the President has once 
again chosen wisely. Technology-based innovation, as you know, 
Mr. Chairman, remains one of the nation's most important 
competitive challenges. Today, more than at any other time in 
our history, technological innovation and progress depend on 
the tools that NIST helps develop to measure, evaluate, and 
standardize the technologies that emerge. As a result of NIST's 
work on these tools, we're putting our companies, here in the 
United States, at the forefront of innovation.
    When I say the President has made a wise choice, if you 
look at Dr. Jeffrey's technical leadership skills, his 
experience both in government and the private sector, make him, 
truly, an outstanding choice to serve as Director of NIST. He's 
been involved in science and technology programs and policies 
since 1988.
    Dr. Jeffrey is currently the Senior Director for Homeland 
Security and National Security, and the Assistant Director for 
Space and Aeronautics at the Office of Science and Technology 
Policy within the Executive Office of the President. Prior to 
joining the Bush Administration, Bill was with DARPA--the 
Defense Advanced Research Projects Agency, which is obviously 
very well known for its contributions in the defense and 
technology community, including the invention of the Internet. 
Dr. Jeffrey served as the Deputy Director for the Advanced 
Technology Office, and Chief Scientist for the Tactical 
Technology Office. During his tenure there, he developed 
research programs in communications, computer network security, 
novel sensor development, and space operations.
    Besides being a fellow Virginian, Bill and I also share a 
commitment to research and advancement in physical sciences, 
such as nanotechnology.
    I'm confident, Mr. Chairman, your examination of Dr. 
Jeffrey's record will show that he is going to serve the 
President and, most importantly, the American people very well 
as the Director of NIST. I thank you for accommodating this 
hearing today so we can move forward with this outstanding 
nominee.
    The Chairman. Thank you very much, Senator Allen.
    Do you have an opening statement to make, Senator?

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    Senator Inouye. May I have it printed in the record?
    The Chairman. The Co-Chairman wishes his statement to be 
placed in the record.
    [The prepared statement of Senator Inouye follows:]

             Prepared Statement of Hon. Daniel K. Inouye, 
                        U.S. Senator from Hawaii
    Good morning. I want to thank Chairman Stevens for calling this 
hearing to consider several of the nominations pending before our 
Committee. I congratulate each of the nominees for garnering the 
President's confidence and for making it to this important step in the 
process.
    Each of you are slated to fill posts that are critical to America's 
future economic competitiveness. From new technologies to global trade, 
from advanced research to the security of our transportation system, 
the work performed at each of your respective agencies will help ensure 
that America remains a global, technological leader and that our 
economy remains vibrant and secure.
    Obviously, these agencies face tremendous challenges:

  <bullet> The Transportation Security Administration (TSA) has been in 
        a near constant state of reorganization, which has made their 
        essential security work all the more complicated.

  <bullet> The National Institute for Standards and Technology (NIST) 
        is facing aging infrastructure, and its critical assistance to 
        America's struggling manufacturers is in jeopardy.

  <bullet> The Research and Innovative Technology Administration (RITA) 
        is a brand new agency that will need to define its role and 
        establish itself amongst the other modal Administrations within 
        the Department of Transportation.

  <bullet> And, the Foreign Commercial Service must find new ways to 
        balance the security demands of its overseas operations while 
        maintaining an active, visible presence in the markets it seeks 
        to open.

    Add to each of these individual challenges the government-wide 
budget restraints brought on by historic deficits and the continual 
demands to improve performance, and your work is truly cut out for you.
    I look forward to a spirited conversation today as we examine your 
credentials and your perspectives, and I thank each of you for your 
commitment to public service. Should you be confirmed, I can assure you 
that we will be in touch regularly.

    The Chairman. Well, first, anyone who's been at DARPA, in 
my judgment, is an unsung hero. I don't think many people 
really understand DARPA the way some of us who have served on 
this Committee and on the Defense Appropriations Subcommittee 
do. And I congratulate you for your service on that.
    Could you tell me, does your organization--now that you're 
joining the National Institute of Standards and Technology--
have a significant role in homeland security now?

        STATEMENT OF DR. WILLIAM JEFFREY, NOMINEE TO BE 
DIRECTOR OF THE NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY 
                 (NIST), DEPARTMENT OF COMMERCE

    Dr. Jeffrey. Thank you, Senator.
    Yes, it does. The National Institute of Standards and 
Technology, NIST----
    The Chairman. Pull that mike back toward you, please.
    Dr. Jeffrey. Thank you. Yes, NIST actually has a very 
active role, currently, in supporting Homeland Security. NIST, 
given its technical expertise, is essentially one of the go-to 
places that the Federal Government has. For example, it's 
working heavily on biometrics research. It's been dealing 
heavily in--actually, in the Senate Office Building, at the 
anthrax attack, NIST took the lead in figuring out exactly what 
the filter should be for the mail system, to protect us. 
They're also taking a lead in the World Trade Center 
investigation. There's a variety of issues that we've been 
looking at, and they play a very significant role. And I would 
expect them to play a significant role in the future.
    The Chairman. Do you know much about the screening 
technologies? Will you be involved in that at all? There's been 
some question about the adequacy and efforts in the screening 
technology. Will you be dealing with that?
    Dr. Jeffrey. To be honest, sir, I don't know what 
involvement NIST has with screening. I know that they have 
supported, in terms of some of the standard devices, basically 
looking at different kinds of materials that would go through 
airport screening. They've helped to calibrate the sensors, but 
I don't have a lot of detail for you today as to what the 
growth in that field would be. I would be glad to come back and 
respond to that.
    The Chairman. With your background, do you have any ideas 
on how we can improve that system? Please let us know. We'd be 
pleased to work with you.
    Dr. Jeffrey. Absolutely.
    The Chairman. Does the Co-Chairman have anything to say 
about this witness?
    Senator Inouye. I have no objection. Mr. Jeffrey has done a 
good job.
    The Chairman. We look forward to reporting your nomination 
forward. Thank you.
    [The prepared statement and biographical information of Dr. 

Jeffrey follows:]

 Prepared Statement of Dr. William Jeffrey, Nominee to be Director of 
 the National Institute of Standards and Technology (NIST), Department 
                              of Commerce
    Mr. Chairman, Co-Chairman Inouye, and Members of the Committee: 
Thank you for the opportunity to appear before you today regarding my 
nomination to be the Director of the National Institute of Standards 
and Technology. I am honored to be nominated to this position by 
President Bush and I wish to thank Commerce Secretary Gutierrez for his 
support.
    I am excited by the prospect of leading NIST. For much of my 
professional career, I have been a user of NIST products including 
data, calibration sources, and technical assessments. As a graduate 
student, one of my most dog-eared books was the Handbook of 
Mathematical Functions which was edited by two NIST employees (at that 
time the National Bureau of Standards). Later when working on a 
Department of Defense infrared satellite I relied on NIST to ensure the 
sensor was calibrated properly so that data coming from that satellite 
was reliable. More recently, I have interacted with NIST on homeland 
security standards, their assessment of the efficacy of radiation to 
kill biological organisms in the mail, and their evaluation and 
recommendations for the use of biometric identifiers. These experiences 
span only a small subset of the types of programs within the NIST 
Laboratories. In all my experiences and interactions with NIST, I have 
been impressed by the technical depth, creativity, and responsiveness 
of the Institute. If confirmed, it would be a privilege to be part of 
that organization.
    NIST is one of the crown jewels of the federal science and 
technology enterprise--both in terms of quality of the science as well 
as the tremendous positive impact that NIST has had in advancing 
manufacturing and services, facilitating trade, enhancing public safety 
and security, and in improving the quality of life. NIST's broad 
technical capabilities have also made it the ``go to'' source for new 
techniques and objective analyses to address critical national needs 
such as those that arose out of 9/11.
    Maintaining NIST's technical excellence and relevance has never 
been more important to our nation. Winning the global war on terror, 
defending the homeland, and ensuring our economic security are the 
Administration's top priorities--and NIST plays a vital role in 
supporting all three. For example, numerous studies have shown the 
importance of basic research and technological change to economic 
growth. Whereas the United States is still the world leader in research 
and discovery, the political changes and technical advances in the last 
twenty years have allowed a larger fraction of the world to participate 
in the global economy--creating both increased economic competition and 
increased opportunity. The United States must remain the leader in 
innovation, continue to adapt to the increased pace of technological 
change, and be vigilant in ensuring fair and open trade practices. If 
confirmed, my goal would be to enable NIST to make even greater 
contributions to ensure U.S success in these important respects.
    NIST plays an important role as a leader in innovation and enabling 
industry to adapt to technological change. Somewhat analogous to an 
athlete competing in ``extreme sports,'' NIST competes in ``extreme 
science,'' working at the edge of current laboratory capabilities--
enabling measurements at the most extreme temperatures, the shortest 
timescales, the smallest distances, and with the greatest accuracy and 
precision. As described by NIST, ``To make it well, you must be able to 
control it. To control it, you must be able to measure it.'' The 
ability to push the envelope of the state-of-the-art has led to 
fundamental breakthroughs resulting in improved manufacturing quality 
and efficiency and garnering national and international scientific 
recognition. Maintaining and planning for upgrades to this capability--
to ensure continued world-class capability--requires significant 
resources in terms of money and talent. In this regard, the Congress 
has provided important resources with recent examples being the 
Advanced Measurement Laboratory and the Advanced Chemical Sciences 
Laboratory. If confirmed, I will work with Congress to ensure the 
necessary world-class infrastructure and talent are in place--always 
with the goal of ensuring that NIST strengthens America's 
infrastructure for innovation.
    Relentlessly innovating and constantly adapting to technological 
change are requirements for success in the global economy--but they are 
not sufficient. Standards, for example, can be a powerful force 
multiplier in opening up new markets and developing new industries. 
However, standards can also be used to limit options and to negatively 
impact global trade. The technical expertise and credibility of NIST is 
critical to the Federal Government and private sector--providing the 
technical underpinning for measurement standards and helping to 
harmonize our standards with others around the world. NIST also 
supports the global recognition of U.S. standards, which are developed 
through consensus, in a transparent and open process, and are relevant, 
responsive, and performance-based. These are the guiding principles as 
articulated in the National Standards Strategy for the United States 
drafted by private and public sector organizations. If confirmed, it 
would be a top priority of mine to maintain NIST's strong presence in 
the standards setting process and to continue to champion a consensus-
driven and open process globally, working closely with the private 
sector.
    NIST is also instrumental in improving the quality and performance 
of America's businesses. The Baldrige National Quality Program is the 
premier U.S. award for performance excellence and quality achievement. 
One measure of its impact is the number of countries around the world 
that have established programs to mimic it. The Baldrige National 
Quality Program is a successful collaboration of the private sector and 
federal and state governments. It will reach an important milestone 
this year--with the 1,000th application since award inception. With 
modest funding, this program has achieved substantial returns. It is 
now beginning to have similar impacts among schools, hospitals and 
other education and healthcare organizations.
    The Hollings Manufacturing Extension Partnership (MEP) assists 
small to medium-sized manufacturers in improving quality and 
efficiency. The MEP brings technical and managerial expertise to the 
largest segment of the nation's manufacturing community (based on 
number of establishments and number of employees). The MEP has formed 
strong partnerships with state and local governments and the private 
sector allowing the program to grow in numbers and scope. With nearly 
350 not-for-profit centers, the program has now achieved a presence 
across the United States. If confirmed, I look forward to working with 
the Congress to devise a long-term strategy consistent with the 
program's value and overall budget priorities for NIST.
    I have had the pleasure of meeting several of you and your staff 
since being nominated. For those whose schedules did not allow for a 
meeting prior to this hearing--I look forward to meeting with you soon. 
In these discussions, while there was some disagreement with the 
Administration on relative priorities of some programs, it was quite 
clear that there is consensus on the overall value of NIST, its 
mission, and the need to maintain its technical preeminence. 
Maintaining NIST's capabilities can best be accomplished by working 
together to ensure consistency and stability in NIST's long-term vision 
and direction. If confirmed, I will work with you and your staff 
towards this end.
    I would be pleased to address any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): William Alan 
Jeffrey.
    2. Position to which nominated:
    Director of the National Institute of Standards and Technology 
(NIST) Department of Commerce.
    3. Date of Nomination: May 25, 2005.
    4. Address (List current place of residence and office addresses):
        Residence: Not released to the public.
        Office: Office of Science and Technology Policy, 725 17th St., 
        NW, Washington, DC 20502.
    5. Date and Place of Birth: Arlington Heights, IL--January 13, 
1960.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage): Not Applicable.
    7. List all college and graduate degrees. Provide year and school 
attended.

        Ph.D.--Harvard University 1983-1988.
        M.A.--Harvard University 1983-1988.
        B.Sc.--Massachusetts Institute of Technology 1978-1982.

    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.

        Senior Director for Homeland and National Security and 
        Assistant Director for Space and Aeronautics
        Office of Science and Technology Policy (OSTP)
        July 2002-Present.

        Chief Technology Officer
        Adroit Systems, Inc.
        March 2002- July 2002.

        Deputy Director, Advanced Technology Office (1999-2002)
        Chief Scientist, Tactical Technology Office (1998-1999)
        Defense Advanced Research Projects Agency (DARPA)
        March 1998-March 2002.

        Assistant Deputy Director for Advanced Technology
        Defense Airborne Reconnaissance Office (DARO)
        February 1997-March 1998.

        Research Staff Member
        Institute for Defense Analyses
        March 1993-February 1997 and August 1988-August 1991.

        Research Scientist
        Grumman Aerospace
        August 1991-March 1993.

    9. List any advisory, consultative, honorary or other part-time 
service or positions with federal, state, or local governments, other 
than those listed above, within the last five years.

        Drug Control Research, Data, and Evaluation Advisory Committee
        Office of National Drug Control Policy
        Executive Office of the President
        April 2004-present.

        Solar System Exploration Subcommittee Technical Assessment 
        Group
        National Aeronautics and Space Administration
        Approximately March 2002- July 2002.

    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last five years.

        Chantilly Highlands Homeowners Association
        Board of Directors (volunteer position)
        June 2000-February 2002.

    11. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.

        Chantilly Highlands Homeowners Association
        All homeowners in subdivision are automatically members
        September 1991-present.

        Boy Scouts of America
        No position held
        Membership 2001 as adult supervisor for camping trip to 
        Philmont, New Mexico.

        American Institute of Aeronautics and Astronautics
        Professional Technical Society
        No position held
        Automatic membership over the past 10 years when attending 
        conferences.

    12. Have you ever been a candidate for public office? If so, 
indicate whether any campaign has any outstanding debt, the amount, and 
whether you are personally liable for that debt: No.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

        Republican National Committee 2002      $50
        Republican National Committee 2003      $83
        Republican National Committee 2004      $200
        Republican National Committee 2005      $100

                                           Total: $433

    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements.

        Defense Advanced Research Projects Agency (DARPA) Coin #129
        Department of Defense
        February 2002.

        Secretary of Defense Medal for Outstanding Public Service
        Department of Defense
        April 2001.

        Exceptional Performance Certificate
        Intelligence Program Review Group
        December 1998.

    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        List of articles and speeches are attached. Most are technical 
        presentations and none are directly related to the position at 
        NIST.

    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony: None.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers: None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

        I have three sector-specific mutual funds which do not create a 
        per se conflict of interest, but, because they are over the 
        regulatory exemption for sector-specific mutual funds, I intend 
        to sell them so as not to need to limit my ability to advise 
        the Secretary of Commerce by recusing myself from matters 
        affecting the sectors at issue.

    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.

        I will consult with the ethics officials of the Department of 
        Commerce and, if appropriate, divest myself of conflicting 
        interests, recuse myself, or obtain a conflict of interest 
        waiver under 18 U.S.C. Section 208(b) if the interest is not 
        substantial.

                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any federal, state, or other law enforcement authority of any federal, 
state, county, or municipal entity, other than for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere ) of any criminal violation other than a minor trafic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: No additional information.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? No.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

William Alan Jeffrey--Speeches
    Aeronautics Science and Technology, National Research Council 
Aeronautics and Space Engineering Board, March 2005.

    FY 2006 Space Science Budget, National Research Council Space 
Studies Board, February 2005.

    Information Technology & Cyber Defense, University of CA 
Engineering Symposium, November 2004.

    Ensuring 21st Century U.S. Civil Aeronautics Superiority, 
Conference on Aeronautics, October 2004.

    Funding of Aeronautics Science and Technology, National Research 
Council Aeronautics and Space Engineering Board, July 2004.

    Federal Research and Development, Goddard Academy, July 2004.

    Importance of the Nation's Research and Development, George 
Washington University, June 2004.

    Homeland Security: The Role of Science & Technology, Innovation in 
CA Symposium, May 2004.

    Homeland Security: The Role of Science & Technology, University of 
Wisconsin Symposium, May 2004.

    A Renewed Spirit of Discovery: The President's Vision for U.S. 
Space Exploration, University of Wisconsin Symposium, May 2004.

    National Aerospace Initiative, National Research Council 
Aeronautics and Space Engineering Board, August 2003.

    Homeland Security Science and Technology: Rising to the Challenge, 
Armed Forces Communications and Electronics Association, April 2003.

    Homeland Security Science and Technology, University of Texas 
Symposium, December 2002.

    Homeland Security: The Role of Science and Technology, Department 
of Commerce Symposium, November 2002.

    The Engineer's Response to Homeland Security, American Society of 
Mechanical Engineers, October 2002.

    Homeland Security Science and Technology, National Defense 
University, September 2002.

Open Publications:

    Jeffrey, W. et al., July 2002, Technical Roadmap to Reach the Outer 
Planets, Solar System Exploration Subcommittee Technical Assessment 
Group, report to NASA.

    Kohlberg, I., D. Brown, and W. Jeffrey, February 1997, 
``Application of Similarity Techniques for Verification of RV Flow 
Field Models in the TMD Regime'', IDA Document D-1935.

    Perlman, S.E., C.K. Chuang, J.S. Draper, E.M. Powers, D.S. Frankel, 
H.E. Evans, L.N. Lillard, W.A. Jeffrey, and B.A. Hibbeln, 12-14 March 
1996, ``Passive Ranging for Detection, Identification, Tracking, and 
Launch Location of Boost Phase TBMS'', IRIS Conference on Passive 
Sensors.

    Ratkowski, A.J., H.V. Baker, W. Jeffrey, R.W. Gobel, J. Hood, J. 
Fraser, J. Shanks, J.L. Boulay, 1995, ``MSTI-3 Passive Infrared and 
Visible Remote Sensing of Clouds and the Atmosphere'', Proceedings of 
SPIE, 2578, 274.

    W. Jeffrey, R. Roberts, C. Cook, M. Smith, R. Sullivan, 1995, 
``NOAA-J External Independent Readiness Review'', IDA Document.

    Werderman, J., T. Suthar (PRA), C. Gaither, K. Shafer (ANSER), W. 
Jeffrey (IDA), 21 September 1995, ``Hera Piledriver Demonstration 
Mission Requirements Document (MRD) for AIRMS, Cobra Judy, ETS, HALO/
IRIS, ROBS, & SLBD''.

    Gaither, C., C. Pedersen, K. Shafer (ANSER), W. Jeffrey (IDA), J. 
Werderman, (PRA), 18 August 1995, ``Hera Target Demonstration Mission 
Requirements Document (MRD) for ARES, AST, ETS, Cobra Judy, HALO/IRIS, 
HARP, ROBS, SFTS & SLBD'', Revison 4.1.

    W. Jeffrey, R. Roberts, C. Cook, M. Smith, 1995, ``EOS AM-1 
External Independent Readiness Review'', IDA Document.

    Werderman, J., T. Suthar (PRA), C. Gaither, K. Shafer (ANSER), W. 
Jeffrey (IDA), 24 March 1995, ``Hera Propulsion Test Vehicle 
Demonstration Mission Requirements Document (MRD) for AIRMS, Cobra 
Judy, ETS, HALO/IRIS, ROBS, & SLBD'', Revison 3.0.

    Rehill, C., K. Shafer (ANSER), W. Jeffrey (IDA), J. Werderman 
(PRA), 13 March 1995, ``Navy LEAP FTV-4 Mission Requirements Document 
(MRD) for HALO/IRIS, AST, AIRMS '', Revison 01.

    Rehill, C., K. Shafer (ANSER), W. Jeffrey (IDA), J. Werderman, T. 
Suthar (PRA), 2 February 1995, ``Navy LEAP FTV-3 Mission Requirements 
Document (MRD) for HALO/IRIS, AST '', Revison 03.

    Gaither, C., C. Pedersen, K. Shafer (ANSER), W. Jeffrey (IDA), J. 
Werderman, T. Suthar (PRA), 18 January 1995, ``Unitary Storm Target 
Demonstration Mission Requirements Document (MRD) for AST, ETS, HALO/
IRIS, ROBS, & SLBD'', Revison 4.0.

    R. Roberts, D. Braverman, C. Cook, H. Hagar, W. Jeffrey, M. Smith, 
1994, ``ATLAS-3 External Independent Readiness Review'', IDA P-2992.

    Jeffrey, W., J. Fraser, R. Gobel, R. Matlock, and G. Schneider 
1994, MSTI: Pushing the Limits of Sensor and Bus Technology, The 
European Symposium on Satellite Remote Sensing, SPIE, 2317, 206.

    Jeffrey, W., J. Fraser and G. Schneider 1994, MSTI-3 Science 
Objectives, USU Small Satellite Conference, published in proceedings.

    Jeffrey, W., et al. 1994, MSTI-3 Background Data Collection 
Experiment, USU Small Satellite Conference, published in proceedings.

    Jeffrey, W., J. Draper and R. Gobel 1994, Monocular Passive 
Ranging, IRIS Targets, Backgrounds, and Discrimination Meeting, 
published in proceedings.

    Gobel, R., W. Jeffrey, and J. Draper 1994, Passive Ranging with a 
Single IR Sensor, in Atmospheric Propagation and Remote Sensing III, 
SPIE Proc. Vol. 2222, 872.

    Tilton, B., E. Grigsby, W. Jeffrey, et al. 1993, Science and 
Phenomenology Objectives of the MSTI Program, 7th Annual AIAA/USU 
Conference on Small Satellites, September 13-16.

    Jeffrey, W. 1991, Plume Modeling, in Soviet Chemical Propellant 
Research and Development, FASAC Report.

    Horner, S., Jeffrey, W., et al. 1991, Solar Differential Rotation, 
Astrophysical Journal.

    Jeffrey, W., et al. 1991, Functional Optimization and Pattern 
Selection in Rayleigh-Benard Convection: An Implementation on the 
BBN<SUP>TM</SUP> Butterfly Parallel Processor, Journal of Computational 
Physics.

    Gilliland, R., Jeffrey, W., et al. 1991, Time-Resolved CCD 
Photometry of an Ensemble of Stars in the Open Cluster M67, 
Astronomical Journal.

    Keto, E., W. Jeffrey, 1991, The Three Dimensional Structure of 
Astronomical Sources Through Optimal Inversion, in Radio 
Interferometry: Theory, Techniques, and Applications, Proceedings of 
the 131st IAU Colloquium, Astonomical Society of the Pacific, 228.

    Keto, E.R., R. Ball, W. Jeffrey, D. Proctor, M. Reid, J.F. Arens, 
G. Jernigan, and G. Garay 1989, The Search for Protostars, Bulletin of 
the American Astronomical Society, 21, 1085.

    Jeffrey, W. 1988, Inversion of Helioseismology Data, Astrophysical 
Journal, 312, 124.

    Jeffrey, W. 1987, Inversion Algorithms 1, The CfA Inversion 
Workshop, edited by W. Jeffrey (GONG Report #4), pg. 74.

    Jeffrey, W. and Rosner, R. 1987, An Optimal Approach to the Inverse 
Problem, in Advances in Helio- and Asteroseismology, edited by J. 
Christensen-Dalsgaard and S. Frandsen (IAU Conference #123), 129.

    Jeffrey, W. and Rosner, R. 1986, Neural Network Processing as a 
Tool for Function Optimization, in Neural Network for Computing, edited 
by John S. Denker (AIP Conference Proceeding 151), p. 241.

    Jeffrey, W. and Rosner, R. 1986, Optimization Algorithms: Simulated 
Annealing and Neural Network Processing, Astrophysical Journal, 310, 
473.

    Jeffrey, W. and Rosner, R. 1986, On Strategies for Inverting Remote 
Sensing Data, Astrophysical Journal, 310, 463.

    Jeffrey, W. and Rosner, R. 1985, Inverting Remote Sensing Data by 
Simulated Annealing, Bulletin of the American Astonomical Society, 17, 
901.

    Jeffrey, W. and Rosner, R. 1985, Inversion Techniques for 
Helioseismology, Bulletin of the American Astronomical Society, 17, 
639.

Limited Distribution Publications:

    Jeffrey, W., R.W. Gobel, and J. Fraser, 1996, MSTI-3 On-Orbit 
Characterization Plan.

    Hood, J., W. Jeffrey, I. Robinson, 1996, MSTI-3 Background 
Measurements Plan, ANSER Document.

    Wolfhard, H.G., D. Hsu, I. Kohlberg, and W. Jeffrey, 30 January 
1996, Storm Related Measurements, IRIS Targets, Backgrounds, and 
Discrimination Meeting.

    Gobel, R.W., A. Ratkowski, and W. Jeffrey 1994, Miniature Sensor 
Technology Integration-III Calibration Test Plan, ANSER Document 12BM-
P95003.

    Jeffrey, W. and E. Malaret 1993, Intrinsic Core Analysis of Antares 
IIA, JANNAF Exhaust Plume Technology Subcommitte Meeting, 9-11 
February, Phillips Laboratory, Kirtland AFB, NM.

    Jeffrey, W., et al. 1993, Analysis of Red Gemini V IR Data: 
Evidence for Scattering, IRIS Specialty Group on Targets, Backgrounds 
and Discrimination (Vol. III), Monterey, CA., 26-28 January.

    Werderman, J.P., R.W. Gobel, J. Marqusee, and W. Jeffrey 1993, 
HALO/IRIS, SLBD, and ETS Mission Requirements Document for STC-1, 
Nichols Research Corporation Document.

    Gobel, R.W. and W. Jeffrey 1993, Mission Requirements Document for 
Red Gemini VIII, ANSER Document ATNS-93040.

    Corcoran, M.B., S. Corns, W. Jeffrey, et al. 1993, Argus, HALO, and 
Malabar Mission Requirements Document for COMET Atum, 13 January.

    Gobel, R.W. and W. Jeffrey 1993, Mission Requirements Document for 
Red Gemini VII, ANSER Document ATNS-93027.

    Hood, J., D. Fenn, W. Jeffrey, et al. 1993, Argus, AEDC/SvT Mission 
Requirements Document for COMET Thoth, ANSER Document ATNS-93008.

    Hood, J. and W. Jeffrey 1992, Argus/HALO/Ground Sensors Mission 
Requirements Document for TOO-W5783, ANSER 2.6-P92022.

    Gobel, R.W. and W. Jeffrey 1992, Mission Requirements Document for 
Red Gemini VI, ANSER Document ATNS-92020.

    Corcoran, M.B., W. Jeffrey, and T. Suthar 1992, Argus/HALO/Malabar 
Mission Requirements Document for Delta II A3003, ANSER Document 2.6-
P92018.

    Corcoran, M.B., M. Lester, and W. Jeffrey 1992, Argus Mission 
Requirements Document for COMET 0818, ANSER Document ATNS-92012.

    Fenn, D., W. Greczyn, and W. Jeffrey 1992, HALO Mission 
Requirements Document for FE-3, ANSER Document ATNS-92009.

    Hood, J. and W. Jeffrey 1992, Argus Mission Requirements Document 
for STARS FTU-1, ANSER Document ATNS-92008.

    Corcoran, M.B., T. Suthar, and W. Jeffrey 1992, Argus/HALO/Malabar 
Mission Requirements Document for Delta II Target of Opportunity, ANSER 
Document ATNS-92001.

    Jeffrey, W., et al. 1991, Experiment Requirements Document for 
Strypi XI Launch, Bendix Publication.

    Jeffrey, W., et al. 1991, Orbus Plume Analysis: Preliminary 
Assessment, IRIS Specialty Group on Targets, Backgrounds, and 
Discrimination, Monterey, CA.

    Gobel, R.W. and W. Jeffrey 1991, Mission Requirements Document for 
Red Gemini V, ANSER Document ATNS-92007.

    Wolfhard, H.G., Jeffrey, W. and Lewis, B. 1990, Final Report on 
Chemical Reactions in High-Pressure Fuel-Rich Flames, Combustion 
Chambers, and Gas Generators, Part 1: Fuel-Rich Flames at High 
Pressure, IDA P-2406.

    Wolfhard, H.G., Jeffrey, W. and Lewis, B. 1990, Combustion 
Processes in Gas Generators, IDA D-751.

    Jeffrey, W., Slack, M. and Laux, L. 1990, Orbus Preflight 
Predictions, IDA D-755.

    Wolfhard, H.G. and Jeffrey, W. 1990, Combustion at High Pressure 
and its Relevance to Rockets, IDA P-2247.

    Wolfhard, H.G., Jeffrey, W. and Lewis, R.J., 1990, Chemical 
Reactions in Fuel-Rich Flames at High Pressure, IDA H90-3714.

    Wolfhard, H.G. and Jeffrey, W. 1989, Chemical Nonequilibrium and 
its Relevance to Rockets. Vol. I: Combustion at High Pressure, IDA P-
Paper.

    Wolfhard, H.G. and Jeffrey, W. 1989, Chemical Nonequilibrium and 
its Relevance to Rockets. Vol. II: Rocket Combustion, IDA P-Paper.

    Albright, P., Marqusee, J., Wolfhard, H.G. and Jeffrey, W. 1989, 
Plume Measurements Program Using Aircraft-Based Sensors, IDA P-2236.

    Brownley, J. and W. Jeffrey 1989, Mission Requirements Document for 
Red Gemini IV, ANSER Document 2.1-91014.

    The Chairman. Next, we will have Kip Hawley----
    Oh, pardon me. In order to accommodate the Senator from 
Texas, may we call Mr. Hernandez to the stand, please?
    Israel Hernandez has been nominated to be Assistant 
Secretary of Commerce, and become the head of the Foreign and 
Commercial Service. Senator Hutchison is here to introduce him. 
We welcome you, Senator.
    But, before you do that, would you care to introduce your 
family or friends that are here, Mr. Hernandez?
    Mr. Hernandez. Yes, sir. Thank you, Senator.
    I actually have my sister Elizabeth, my mother and my 
father, who came up from Austin and Eagle Pass, Texas. And I 
have a great number of friends from DC, which are many and 
plenty here, seated throughout the conference room. There's 
probably too many to name, so I will just say there's a good 
representation.
    The Chairman. We welcome them all.
    Senator Hutchison?

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman.
    Now, we know, as good politicians, when we want to build a 
crowd, we need to call Mr. Hernandez, because he has brought a 
crowd here today. Very good.
    I'm very pleased to be able to introduce my fellow Texan, 
Israel Hernandez, who has been nominated for the positions of--
to be Assistant Secretary of Commerce and Director General of 
the U.S. Foreign and Commercial Service. Mr. Chairman, he will 
be a superb Assistant Secretary and Director. He has worked for 
our President since he was Governor of Texas. He was one of the 
very first people employed by the new Governor Bush. His hard 
work and dedication earned him the position of Deputy Assistant 
to the President, after the President was elected. Mr. 
Hernandez assisted in strategic planning and intergovernmental 
affairs at the White House during the President's first term.
    Currently, he is the Senior Advisor to the Secretary of 
Commerce and the Acting Under Secretary for International 
Trade. He has worked so hard his whole life, and this is the 
area in which he will excel for sure.
    He graduated from the University of Texas, and he was in 
the first class to graduate from the George Bush--George H.W. 
Bush School of Government and Public Affairs at Texas A&M 
University. This is an indication that Mr. Hernandez is someday 
going into politics. If you have graduated from both the 
University of Texas and Texas A&M, this is a clue. So----
    [Laughter.]
    Senator Hutchison.--I do think that he's going to do a 
great job, and I highly recommend him to our Commerce Committee 
and for confirmation in the Senate.
    Thank you, Mr. Chairman.
    The Chairman. Well, Mr. Hernandez, you've been nominated to 
join one of the outstanding leaders, I think, of our country, 
in Mr. Gutierrez. And in your written statement you mention a 
strategic vision for foreign and commercial service. Tell us 
about that vision. How is that going to help us decrease our 
imbalance in trades, increase our exports?

         STATEMENT OF ISRAEL HERNANDEZ, NOMINEE TO BE 
          ASSISTANT SECRETARY FOR TRADE PROMOTION AND 
          DIRECTOR GENERAL, UNITED STATES AND FOREIGN 
           COMMERCIAL SERVICE, DEPARTMENT OF COMMERCE

    Mr. Hernandez. Yes, sir. We live in a very dynamic time at 
this point, and we need to recognize the changing economies in 
the United States and around the world. And one of my goals is 
to make sure that--with our budget, that we use the best 
resources for solutions to make sure that our small- and 
medium-sized businesses compete and have greater access to 
international markets. So, one of my goals is to constantly try 
to find ways--and work with our wide network of specialists, 
which are located here in the United States and in 80 countries 
around the world--to make sure we constantly try to find ways 
to increase exports, and we constantly try to find ways to 
reduce the barriers so that small- and medium-sized companies 
have greater opportunities abroad.
    The Chairman. Does that vision include some way to giving 
incentives to our small businesses to increase exports?
    Mr. Hernandez. Sir, what we do--what we would do, if 
confirmed, the functions of the Bureau would be inherently 
governmental, and--that is to create an opportunity for small 
businesses to create their--we don't subsidize, and we don't 
create incentives; we just create opportunities for small- and 
medium-sized companies. So, I would say that our function would 
be to make sure that we constantly keep in line the obligations 
of working agreements, that we work from government to 
government to try to create greater opportunities for our 
small- and medium-sized companies, and we constantly try to 
make sure that we trade--you know, decrease the barriers that 
exist today in foreign--in markets abroad.
    The Chairman. Senator Inouye?
    Senator Inouye. Mr. Chairman, I thank you.
    I've had the privilege of meeting Mr. Hernandez in my 
office. And, after the in-depth conversation I had with him, 
I'm convinced he will make a superb Assistant Secretary.
    Mr. Hernandez. Thank you, Senator. It was a pleasure to 
meet you, and I appreciate the time you gave me. And you're 
actually one of the few Senators, or people, actually, in DC, 
who know about Eagle Pass, Texas. So, thank you for your time.
    The Chairman. Thank you very much.
    Mr. Hernandez. Thank you, Senator.
    [The prepared statement and biographical information of Mr. 
Hernandez follows:]

    Prepared Statement of Israel Hernandez, Nominee to be Assistant 
 Secretary for Trade Promotion and Director General, United States and 
           Foreign Commercial Service, Department of Commerce
    Mr. Chairman, Co-Chairman Inouye, and distinguished Members of the 
Committee, thank you for granting me this hearing today. I am humbled 
and honored to be here as President Bush's nominee for the position of 
Assistant Secretary for Trade Promotion and Director General of the 
United States and Foreign Commercial Service.
    I would first like to thank my senator from Texas, Senator Kay 
Bailey Hutchison, for her kind and generous introduction. I am proud of 
her service and her commitment to our great state and our country, and 
I am proud to call her my Senator.
    I would also like to thank President Bush and Secretary Gutierrez 
for supporting my nomination and note how proud I will be to work under 
their leadership.
    If confirmed, I look forward to working with each of you to ensure 
America builds on its status as the world's largest exporter.
    In the world of the 21st century, opening our doors to trade is the 
surest way to create opportunity for all Americans. Trade is about more 
than economics. Free and open trade fosters the spread of ideas and the 
habits of liberty--and ultimately encourages the spread of democracy, 
economic stability, and stronger partnerships.
    I come before this Committee during a transformational moment in 
history. A time when democracy is taking hold around the world and when 
there is great shift in our economy and in economies abroad.
    Pursuit of liberty and new opportunities was a motivating force in 
bringing our Founding Fathers to this great land, and it is this 
freedom that has become the foundation for the entrepreneurial spirit 
embedded in the hearts and minds of the American people.
    From the first electric light--to the first flight--to 
nanotechnology, the entrepreneurial spirit that exists today has 
created a dynamic and vibrant community of enterprises second to none. 
Government's role is to create an environment where entrepreneurs and 
risk takers can realize their dreams.
    Giants like Ford and Microsoft were not so long ago small 
businesses striving to realize the dreams of Henry Ford and Bill Gates. 
Today, small businesses create 70 percent of new American jobs, employ 
the majority of American workers, and are responsible for the majority 
of our nation's economic output. Small business owners are economic 
patriots taking risks and pursuing dreams. A vibrant small business 
sector is necessary for the economic health of our country.
    If confirmed, I pledge to define and lead the Commercial Service 
based on a clear and strategic mission to ensure that small and medium 
sized businesses gain greater access to international markets. I will 
hold myself and the entire organization to a standard of accountability 
that demands efficiency, consistency, and professionalism. I will 
ensure that the team of specialists within the Service has the tools 
necessary to anticipate the commercial interests of our American 
exporters and rapidly adapt on the ground to meet their needs.
    The U.S. and Foreign Commercial Service, created by Congress a 
quarter century ago, does what no other entity in the United States can 
do--provide a global infrastructure in more than 80 countries and a 
domestic platform in 109 cities with the exclusive purpose of promoting 
American goods and services and ensuring a level playing field abroad. 
In 2004, the volume of those sales exceeded $26 billion.
    The Commercial Service offers end-to-end export solutions to help 
smaller firms increase profits and lower risks in accessing markets 
otherwise difficult to enter. The worldwide network of trade 
specialists provides export counseling, customized market research, 
trade leads, and advocacy to help companies compete in global markets. 
This worldwide network is essential to today's market economy in which 
95 percent of the world's consumers live outside of the United States.
    U.S. exports support millions of American jobs. About one of every 
five factory jobs--or 20 percent of all jobs in America's manufacturing 
sector--depends on exports. Research has shown that workers in jobs 
supported by exports typically earn wages higher than the national 
average.
    If confirmed, I will be a disciplined and accountable steward of 
the people's money. I will commit to a thorough assessment of our 
resources to ensure that the Commercial Service not only meets but 
exceeds the highest expectations. I will work to build on the essential 
relationships with partners at the federal, state, and local level.
    Theodore Roosevelt was right when he said, ``The best executive is 
the one who has sense enough to pick good men to do what he wants done 
and self-restraint enough to keep from meddling with them while they do 
it.'' Any organization is only as good as its people, and I will work 
to foster a diverse environment where our men and women in the Service 
continue to grow in discipline and expertise and provide the highest 
quality of service to our constituents--American businesses and their 
employees, owners, and communities. Integrity, efficiency, and 
effectiveness will be at the core of everything I seek to accomplish.
    I hail from the Southwest Texas border, often considered one of the 
last frontiers in the U.S. The privilege to be here with you today is a 
testament to America's place as a haven for dreamers and doers. My 
loved ones--my family and my friends--and our diverse community 
represent America's potential, and I wish to thank them for all they 
have done (and will do) to support me in the vast opportunities on 
which I embark.
    Still today people from around the world see America as a land of 
freedom and opportunity. The President once said, ``We in the United 
States live in liberty, trade in freedom, and grow in prosperity.'' We 
certainly face challenges, but we also face a world of great 
opportunities, and a choice on how to proceed. If confirmed, I look 
forward to the challenge of helping ensure that our nation--and its 
economy--remains a beacon for the world.
    Thank you for your time. I will be happy to answer any questions 
you might have and welcome your comments.
                                 ______
                                 
                      a. biographical information
    1. Name: Israel Hernandez.
    2. Position to which nominated: Assistant Secretary for Trade 
Promotion and Director General of the United States and Foreign 
Commercial Service.
    3. Date of Nomination: May 26, 2005.
    4. Address:

        Residence: Not released to the public.
        Office: Department of Commerce, 15th & Constitution Avenue, 
        Washington, DC.

    5. Date and Place of Birth:

        Date: January 8, 1970.
        Location: Eagle Pass, Maverick County, Texas.

    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage): Not applicable.
    7. List all college and graduate degrees. Provide year and school 
attended.

        University of Texas, Austin, 1988-92, B.A. in Philosophy and 
        Political Science, 1992.

        George Bush School of Government and Public Service, Texas A&M, 
        1997-99, MPA in Public Administration, 1999.

    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.

        05/2005 to Present
        Department of Commerce, International Trade Administration
        Senior Advisor to the Secretary and Under Secretary,
        Washington, DC.

        01/2001 to 05/2005
        White House, Executive Office of the President
        Deputy Assistant to the President and Assistant to the Senior 
        Advisor,
        Washington, DC.

    9. List any advisory, consultative, honorary, or other part-time 
service or positions with federal, state, or local governments, other 
than those listed above, within the last five years.

        01/1995 to 08/1997
        Personal Aide to Governor George W. Bush, Office of the 
        Governor, Austin, Texas.

    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last five years: Not 
Applicable.
    11. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent, or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        Delta Sigma Phi Fraternity, Eta Chapter, University of Texas, 
        1989-1992.

    12. Have you ever been a candidate for public office? If so, 
indicate whether any campaign has any outstanding debt, the amount, and 
whether you are personally liable for that debt.

        I have never been a candidate for public office.

    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

        I have not donated more than $500 to any individual, campaign 
        organization, political party, or political action committee.

    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements: Not Applicable.
    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed: Not Applicable.
    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony: None.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers: None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association, or other organization during your appointment? None.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: None.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items: Not applicable.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject to any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
an federal, state, or other law enforcement authority of any federal, 
state, county, or municipal entity, other than for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: Not Applicable.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? No.
                   d. relationship with the committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees?

        Yes, if confirmed by the Senate, I will make it a high priority 
        to ensure the Office of Trade Promotion and U.S. and Foreign 
        Commercial Service Office complies with deadlines set by 
        congressional committees.

    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures?

        Yes, if confirmed by the Senate, I will make it a priority to 
        ensure that the Office of Trade Promotion and U.S. and Foreign 
        Commercial Service Office protects congressional witnesses and 
        whistle blowers from reprisal.

    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee?

        Yes, if confirmed by the Senate, I will make it a priority to 
        ensure the Committee has access to witnesses and subject matter 
        experts to assist in your oversight and policy development 
        responsibilities.

    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so?

        Yes, if confirmed by the Senate, it will be a personal priority 
        to make myself available to appear and provide testimony before 
        Congressional Committees.

    The Chairman. Let me now call to the witness table Mr. 
Edmund ``Kip'' Hawley and Mr. Ashok Kaveeshwar.
    [Pause.]
    The Chairman. Mr. Hawley has been nominated to head the 
Transportation Security Administration. He's no stranger to 
this Committee. He's familiar with our work on transportation 
security over the years. TSA is now in its fourth year of 
existence, and faced a number of challenges. Foremost is 
streamlining the passenger screening process through programs 
like the Registered Traveler or through new technology. TSA 
must be able to accommodate a record number of passengers going 
through our airports in the coming year.
    And, Mr. Kaveeshwar, you have been nominated to be the 
first Administrator of Research and Innovative Technologies 
Administration at the Department of Transportation.
    Now, may I first ask if either of you have families you 
would like to introduce here today?
    Mr. Hawley. Mr. Chairman, I'd like to thank the Committee 
for having this hearing on the Internet, because my family is 
not able to attend, and they are able to participate through 
the Internet. However, I did find a friend of my son's from 
high school, John Delpuro, who is----
    [Laughter.]
    Mr. Hawley.--who was here on a tour. And so----
    [Laughter.]
    Mr. Hawley.--John is my surrogate son.
    [Laughter.]
    The Chairman. Nobody's ever alone in the Internet days now. 
Very good.
    Mr. Kaveeshwar, do you have any family you'd like to 
introduce?
    Dr. Kaveeshwar. Yes, Mr. Chairman. I'd like to introduce my 
wife Tuti, and my son Jay. I also have some friends who have 
traveled far and wide, and I won't mention all their names, but 
we're--I'm very glad that they're here.
    The Chairman. Wonderful. Well, we thank you.
    Mr. Hawley, Secretary Chertoff and the Inspector General, 
at the Department, have indicated that human screeners have 
limits with respect to accuracy and effectiveness, and that new 
screening technologies must be made available to improve 
security beyond the existing point. Can you give us the status 
of deploying the new detection systems, as passenger screening, 
the ``puffer'' systems, or other such systems nationwide? Have 
you been briefed on that?

STATEMENT OF EDMUND S. ``KIP'' HAWLEY, NOMINEE TO BE ASSISTANT 
                SECRETARY OF HOMELAND SECURITY, 
             TRANSPORTATION SECURITY ADMINISTRATION

    Mr. Hawley. Yes, sir. The so-called ``puffer'' system, 
which is exceptionally good at detecting explosives, is being 
rolled out in a pilot. And I believe today there was an 
announcement of expanding that pilot to more airports. So, the 
focus on explosive detection and more sophisticated 
technologies--such that they can apply to passengers and 
passenger carry-on bags--is an important part of the ongoing 
program.
    The Chairman. Well, how soon will you use the eye scan for 
a data bank that can be called up anywhere?
    Mr. Hawley. The whole biometric solution, as Mr. Jeffrey 
was describing because NIST is a big partner in this--is being 
explored via pilots with a variety of biometric ways, including 
eye scans. And the Department, as a whole, has made a lot of 
effort in the area of biometrics--including fingerprints, for 
US-VISIT. These efforts would be interesting for TSA to look at 
to see what we could leverage from other groups within the 
Department that we might be able to deploy in TSA's mission, if 
confirmed.
    The Chairman. Do you have any questions for Mr. Hawley?
    Senator Inouye. Well, thank you, Mr. Chairman. As you've 
indicated, Mr. Hawley's experience with the Transportation 
post, I think this experience would be most helpful in this new 
position.
    Do you believe that TSA is the central place where 
direction and policymaking decisions be made involving all 
modes of transportation?
    Mr. Hawley. Yes, sir. Almost by definition, the U.S. 
transportation network crosses all modes. And, I think that 
whether it's a package or a person, whether on a train, bus, 
airplane, truck, whatever--that's a matter of convenience and 
economics, but looking at the entire network of the United 
States is intermodal, and I believe that that is essentially 
the role of TSA.
    Senator Inouye. As one who represents an island state, I'm 
obviously concerned about port security. Do you have any 
thoughts on that?
    Mr. Hawley. It's a integral part of the network, and I know 
it is a subject of a lot of attention from the Secretary. In 
his review of departmental activities, I know it is a top 
priority. And TSA and the Coast Guard have significant 
expertise in the area. Customs/Border Patrol currently has 
major action on the port security. But, at the strategic level 
of the network, I believe, that TSA has a lot to add to that 
equation, and is a player, along with, obviously, the Coast 
Guard, which owns the ports, themselves.
    Senator Inouye. Mr. Chairman, I'm satisfied that Mr. Hawley 
will do a good job.
    The Chairman. Senator Pryor, do you have any comments for 
Mr. Hawley?

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. I have a few questions.
    The Chairman. Yes, sir.
    Senator Pryor. Thank you, Mr. Chairman.
    First, Mr. Hawley, thank you for being here. And I think 
everybody would agree--I hope they would--that the Senate 
Commerce Committee has really led the way in pushing for 
increased federal efforts to help secure our nation's passenger 
and freight railroads. As a former railroad employee with Union 
Pacific, do you believe that the TSA is doing enough to help 
railroads meet security needs?
    Mr. Hawley. I should first say I don't really know 
everything that TSA has done in the rail sector. However, in 
response to Senator Inouye's question about the network and the 
modes, rail is a vital part of the national transportation 
system, in both passenger and freight; and, as such, needs a 
very strong level of security as a major component of the 
network. So, with the rail infrastructure owned by the private 
sector, and many efforts executed by the private sector, I know 
that there is a partnership between TSA the private sector and 
Amtrak and state and local governments, so that it all works 
together, although not necessarily by TSA employees.
    Senator Pryor. OK. Do you think that the TSA is doing 
enough--is TSA doing enough, as best you can tell?
    Mr. Hawley. On rail?
    Senator Pryor. Yes.
    Mr. Hawley. You know, I don't know enough to know the 
answer. My instinct is, the whole network----
    Senator Pryor. Yes.
    Mr. Hawley.--is doing very well, and doing enough. I don't 
know exactly what the division of labor is. I know that the 
TSOC, which is the operating center for TSA, that all modes are 
looked at. And I know that the American freight railroads have 
been very active, from immediately after 9/11, to put in place 
their own security that was coordinated with the Federal 
Government. So, I think the overall security of that portion of 
the network is very strong. As to how much of it TSA is 
actually doing, hands on, I'm not----
    Senator Pryor. Do you----
    Mr. Hawley.--exactly sure.
    Senator Pryor.--do you know enough to comment on Amtrak and 
what needs to be done to make Amtrak more secure?
    Mr. Hawley. It's part of the overall network--obviously in 
the urban areas, particularly in the Northeast--and is a vital 
component, and there are other urban areas where passenger 
rail--Amtrak and other commuter rail--is critical. And I know 
there have been pilot studies done on various forms of 
screening. I mean, it's really all part of the Secretary's 
risk-based analysis of the transportation network as to the 
proper division of responsibility and investment.
    Senator Pryor. And, in your view, is TSA the right agency--
are they the right agency to be the lead agency for rail 
security, or should----
    Mr. Hawley. Yes.
    Senator Pryor.--this fall somewhere else?
    Mr. Hawley. No, I think it is. I think it is, as part of 
its network responsibilities. And I should say that that's a--
the Secretary is doing a review of the Department. Obviously, 
I'm a private citizen now, and whatever the Secretary 
determines will have----
    Senator Pryor. Let me switch gears, if I can, to air.
    Mr. Hawley. Yes, sir.
    Senator Pryor. I don't know if you're familiar with so-
called ``inline baggage screening''----
    Mr. Hawley. Yes, sir.
    Senator Pryor.--``systems.'' Do you know about that?
    Mr. Hawley. Yes, sir.
    Senator Pryor. Supposedly, there have been some studies, 
and the sense is that inline baggage screening systems would 
save money by increasing efficiency and effectiveness. Are you 
familiar with that?
    Mr. Hawley. Yes, sir.
    Senator Pryor. And is one of your priorities going to be to 
try to expand inline----
    Mr. Hawley. Senator, I think the priority would be to 
promote the security and efficiency, where, in certain 
conditions, particularly large airports, inline is the way to 
go; whereas, a lot of other, maybe, smaller airports with 
different physical characteristics, there are better solutions 
that can get the flow of bags going through more appropriately. 
Because there's a major capital cost and ongoing operating 
expenses that happen with the inline that you really have to 
have quite a bit of volume to make it cost out. And there are 
other kinds of machines. The Reveal technology is a good 
example of a smaller footprint, yet highly effective, 
explosive-detection system that can be deployed effectively, as 
well.
    Senator Pryor. OK, great. Now, one last line of 
questioning, if you will, and that is, after 9/11, you--as I 
understand it, you helped coordinate the federalized airport 
screening mission at TSA?
    Mr. Hawley. The standup of the agency, yes, sir.
    Senator Pryor. Right. And since that time there's been a 
number of concerns about the screener staffing levels?
    Mr. Hawley. Yes, sir.
    Senator Pryor. Right? And let me ask this. What role did 
you play in the contracting for services to develop the 
screener work-force?
    Mr. Hawley. None, directly; although as part of the--the 
way I would describe what I did was on the architecture side. 
Secretary Mineta said we have the ATSA requirements. You know, 
the President signed the ATSA bill, and this Committee wrote 
most of it. The charge that Secretary Mineta had was, ``Get 
those deadlines accomplished, figure out a way that we can roll 
out, hit those deadlines, get the agency up and standing, and 
do it within the timeframes. And, by the way, don't miss any 
deadlines.'' So, my major focus was to try to put in place the 
processes that would get the major pieces rolling and then come 
together in time to provide an effective security regime. Then, 
as the Department grew, that the agency would fill in the 
pieces. And so, with all the moving parts, my role was more at 
the level of, ``OK, how do we keep this going and sequenced,'' 
as opposed to the actual execution of contracts.
    Senator Pryor. So, does that mean that, for example, you 
would--you were not involved in setting the staffing level for 
the number of screeners?
    Mr. Hawley. You know, at a very high level, certainly, I 
was involved in the process, and I think, to the point of the 
10-minute rule that the Secretary announced, which is, ``We're 
going to have world-class security, world-class customer 
service''--and by that, I mean 10-minute average wait time at 
the checkpoint--and so that what I did with that was say, ``OK, 
we have to design a process now, at this checkpoint, that 
starts with the 10-minute rule, and then work backwards,'' as 
opposed to say, ``Let's put a process in, and whatever it is, 
it is.'' The Secretary was very clear, ``I don't want people 
waiting more than an average of 10 minutes.'' And so, that 
drove the process to be able to have a consistent, repeatable, 
10-minute process.
    Senator Pryor. Is it your opinion that we have enough 
screeners?
    Mr. Hawley. I don't know. And I think that clearly, that is 
a major, major piece of the puzzle. Another major piece is the 
funding of the agency. At this point it is a little up in the 
air. And the right mix of machinery and people is the critical 
driver of this. The charge that, if confirmed, I have from 
Secretary Chertoff, is, ``Secure the security, and do it 
efficiently, bring on the technology, in the right way that you 
can, so that it works.''
    Senator Pryor. Mr. Chairman, that's all I have. Thank you.
    The Chairman. Thank you.
    Thank you very much, Mr. Hawley.
    Mr. Hawley. Thank you.
    The Chairman. We will be pleased to bring your name before 
the Committee at the next mark-up.
    Mr. Hawley. Thank you, Mr. Chairman.
    [The prepared statement and biographical information of Mr. 
Hawley follows:]

Prepared Statement of Edmund S. ``Kip'' Hawley, Nominee to be Assistant 
 Secretary of Homeland Security, Transportation Security Administration
    Chairman Stevens, Senator Inouye, and distinguished Members of the 
Committee, I am honored to appear before you today. I am grateful to 
President Bush for nominating me to serve as Assistant Secretary of 
Homeland Security for TSA.
    Thank you for your prompt consideration of my nomination and for 
the Committee making these proceedings available on the internet. My 
wife Janet and our two sons, not to mention my Mom & Dad, were unable 
to attend here today, so I know that they are all watching somewhere 
out there, no doubt offering suggestions for questions and answers.
    As you know from my background material, I have spent most of my 
career in various parts of the transportation and technology worlds, in 
staff, operating, and executive jobs. Like many Americans, after 9/11 I 
wanted to do something about it, and I feel fortunate that I had that 
opportunity. Working for Secretary Mineta in the months following 9/11, 
I and a handful of private sector executives worked alongside Deputy 
Secretary Jackson and the many outstanding people at the Department of 
Transportation and elsewhere who came together to help stand-up TSA. I 
went home to California in May 2002, and back into business.
    Three years later, I have had the chance to take a fresh look at 
TSA, and there appear to be two over-arching, but conflicting, 
realities.
    First, the talent deployed at TSA, from top to bottom, from start-
up to the present, has been excellent in my opinion. Very highly 
skilled people from all walks of life--public sector, private sector, 
science, academia, the military, the corporate world, basically 
everywhere, have stepped forward to work on this mission, motivated by 
the urgency and importance of TSA's mission. I have seen this first-
hand.
    The second, and conflicting, reality is that there is clearly 
widespread frustration with TSA's performance here on Capitol Hill. 
Members of the Committee have expressed that frustration to me during 
my courtesy calls and I have seen it watching hearings and reading 
transcripts on both the Senate and House sides.
    If I am right about both observations, then bringing the second 
reality in line with the first requires more than a change of players 
at the top or anywhere. In other words I am not here to suggest that I 
am the answer for TSA, but rather that, if confirmed, I would seek to 
bring together those with a stake in TSA's mission and, together, line 
up in a common effort.
    If confirmed, here's the approach I would take.

  <bullet> Clarity of Mission: Secretary Chertoff has outlined a clear 
        vision for the Department based on a disciplined risk-
        management approach to investment and operational priorities. I 
        believe in that vision and would seek to make it fully 
        operational at TSA and develop a clear sense of necessary 
        priorities with employees, along with public and private 
        stakeholders.

  <bullet> Align Resources: The next step would be to take a fresh look 
        at TSA's operations and investments to see if and where changes 
        are needed to more efficiently and effectively accomplish the 
        mission.

  <bullet> Engage Employees: In just the short time that I have been 
        re-introduced to TSA, the commitment of its employees--at all 
        levels--is obvious. There are plenty of ideas and it would be a 
        priority of mine to enable and encourage solution-oriented 
        thinking throughout the organization.

  <bullet> Partnership: Like most of DHS, TSA works as part of a 
        network of players to do its job. The success of the network 
        depends on all parties communicating openly as worthy partners.

  <bullet> Management Systems: Tying this all together, I would work to 
        get in place the training and performance management systems 
        necessary to measure our progress and give the Administration, 
        Congress, and TSA's stakeholders accurate and timely 
        information with which to evaluate TSA's effectiveness.

    The last three, Employees, Partners, and Management, were certainly 
priorities of the previous heads of TSA. I think what is different 
about these approaches is that the first two foundations--Clarity of 
Mission, and Aligning Resources--have yet to be done by TSA.
    The TSA was created in an emergency situation and was in a full 
sprint for over a year to get the ATSA requirements in place and 
restore public confidence in the safety of America's transportation 
system. After the ATSA requirements were achieved, the TSA had the 
formidable job of trying to execute its daily mission while trying to 
fill in the management infrastructure and at the same time integrating 
into DHS. Not surprisingly, given the intense scrutiny of TSA, there 
were also plenty of other front-burner issues.
    Secretary Chertoff's fresh look is really the first chance to 
review the Department's activities in a comprehensive way since 9/11. 
This is why I believe that TSA now has the opportunity to leverage the 
lessons learned and new ideas that have been generated by TSA's talent 
and others to recalibrate the mission and re-align TSA's resources as 
necessary.
    I believe that my previous experience in government and in the 
private sector--mostly working on the nexus between transportation and 
technology--prepares me to understand and act on the input that would 
come from within and outside DHS/TSA.
    I believe that TSA, in addition to having a critical national 
mission, is a special place. It is made up of highly-skilled and 
highly-motivated people, every one of whom stepped up to serve the 
country in the aftermath of 9/11. Should the Senate confirm me, it 
would be an honor to join them in service to the Department and to the 
nation.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used): Edmund 
Summers Hawley nickname: Kip.
    2. Position to which nominated: Assistant Secretary of Homeland 
Security
    3. Date of Nomination: May 19, 2005.
    4. Address (List current place of residence and office addresses): 
Not released to the public.
    5. Date and Place of Birth: November 10, 1953--Waltham, MA.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Janet Isak Hawley, self-employed at home.
        Children: Nicholas Isak Hawley (19), Christopher Isak Hawley 
        (16).

    7. List all college and graduate degrees. Provide year and school 
attended.

        University of Virginia Law School, J.D. (May, 1980)
        8/76-5/77, 8/78-5/79.

        Harvard Law School, Third Year Special Student
        8/79-5/80.

        Brown University, A.B., Political Science (June, 1976)
        8/72-6/76.

    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.


5/76-8/76                        John H. Chafee for Senate Campaign,
                                  Press and Research Assistant,
                                  Providence, RI.
 
5/77-8/78                        U.S. Senator John H. Chafee,
                                  Legislative Assistant, Washington, DC.
 
5/79-8/79                        Law Offices of Northcutt Ely, Summer
                                  Associate, Washington, DC.
 
8/79-5/80                        Prof. Lyman Kirkpatrick (Brown
                                  University), Teaching/Research
                                  Assistant,  Providence, RI.
 
8/80-1/81                        Gaston Snow & Ely Bartlett (Law Firm),
                                  Associate, Boston, MA.
 
2/81-3/83                        U.S. Dept. of Transportation, Office of
                                  Governmental Affairs, Executive
                                  Director, Deputy Assistant Secretary,
                                  Washington, DC.
 
3/83-4/85                        White House Office of Intergovernmental
                                  Affairs Special Assistant to the
                                  President, Deputy Assistant to the
                                  President, Washington, DC.
 
5/85-8/87                        Citicorp Mortgage, Inc., VP/Chief of
                                  Staff, Mid-Atlantic Region, McLean,
                                  VA.
 
8/87-12/91                       Union Pacific Corporation, VP-External
                                  Relations, Washington, DC.
 
1/91-12/94                       Union Pacific Railroad, VP-
                                  Transportation Services, VP-
                                  Reengineering, Omaha, NE.
 
1/95-10/98                       Skyway, Inc. (Supply Chain Management
                                  company), President/Chief Executive
                                  Officer, Watsonville, CA.
 
11/98-11/99                      Self-Employed/Investor, worked with
                                  technology start-ups including Casbah,
                                  Inc. (Intelligent Agent software
                                  company), as Board Member, Pebble
                                  Beach, CA.
 
11/99-10/01                      Arzoon, Inc. (Supply Chain software
                                  company), Executive Vice President-
                                  Corporate Development, San Mateo, CA.
 
10/01-5/02                       U.S. Department of Transportation,
                                  Senior Advisor to the Secretary (Led
                                  project team to establish
                                  Transportation Security
                                  Administration)  Washington, DC.
 
5/02-12/03                       Arzoon, Inc., Executive Vice President
                                  San Mateo, CA.
 
1/04-Present                     Self-Employed, worked with technology
                                  start-ups.
 


    9. List any advisory, consultative, honorary or other part-time 
service or positions with federal, state, or local governments, other 
than those listed above, within the last five years.

        Senior Advisor to the Secretary, U.S. Department of 
        Transportation, 2001-2002.

        Air Traffic Services Committee, Federal Aviation 
        Administration, 2002-2005.

    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last five years.

        Juvenile Diabetes Research Foundation, San Francisco, CA 
        Chapter, Board Member.

        Casbah, Inc., Board Member.

        Arzoon, Inc., Executive Vice President.

        Trovatek, Inc., President.

    11. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.

        Juvenile Diabetes Research Foundation, San Francisco, CA 
        Chapter, Board Member.

        Carmel Valley Ranch, Carmel Valley, CA (Tennis Membership).

        None restricts membership on the basis of sex, race, color, 
        religion, national origin, age or handicap.

        Massachusetts Bar Association, Inactive Member.

    12. Have you ever been a candidate for public office? If so, 
indicate whether any campaign has any outstanding debt, the amount, and 
whether you are personally liable for that debt: No.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years: None.
    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements.

        U.S. Department of Transportation, Exceptional Public Service 
        Award, 2002.

        Transportation Security Administration, Honor Award, 2002.

    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        Winter Meeting, American Pyrotechnics Association, 2/20/04.
        Graduation Address, Defense Language Institute, 3/13/03.
        Silicon Valley Chapter, Council of Logistics Management, 10/01/
        02.
        Monterey Seminar, NIT League, 9/19/02.
        NIT League Annual(?) Meeting, 5/18/02.

    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony.

        October 30, 2003 before House Subcommittee on Aviation on The 
        FAA's Air Traffic Control Modernization programs on behalf of 
        the FAA's Air Traffic Services Subcommittee.

        http://www.house.gov/transportation/aviation/10-31-03/
        hawley.pdf

                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers: None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? None.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

        I own stock in Union Pacific Corporation and my son owns stock 
        in Apple Computer. After consultation with Ethics Counsel at 
        DHS, I have agreed to sell both stocks should I be confirmed.

    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.

        I will follow the guidance of the DHS ethics counsel and will 
        either divest myself of any interest that would be a conflict, 
        or recuse myself as appropriate.

                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any federal, state, or other law enforcement authority of any federal, 
state, county, or municipal entity, other than for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain.

        I was a Director of Casbah, Inc., a software company, which 
        filed for Chapter 11 Bankruptcy Protection. There were no 
        complaints or other action regarding my involvement in the 
        company.

        I was an Officer of Union Pacific Corporation and Skyway, Inc., 
        and while both companies were involved in such proceedings, 
        there were none specific to my roles in the companies to my 
        knowledge.

    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere ) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? No.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. Mr. Kaveeshwar, I've got to confess, I've 
mislaid your background statement. Tell us a little bit about 
yourself.

STATEMENT OF DR. ASHOK KAVEESHWAR, NOMINEE TO BE ADMINISTRATOR 
   OF THE RESEARCH AND INNOVATIVE TECHNOLOGY ADMINISTRATION 
              (RITA), DEPARTMENT OF TRANSPORTATION

    Dr. Kaveeshwar. Thank you, Mr. Chairman.
    I think, back in 1961, I left my hometown of Indor, in 
Central India, after receiving a 1-year scholarship to Fredonia 
State College in Upstate New York. And I guess I'm here before 
you today because of the goodwill of a lot of people, but I'd 
like to mention two--Bob McLaren and Professor Stanley Zarlock, 
who, in their own ways, helped me in my early times, one, to 
get me to pursue a Ph.D. in physics, another to tide me over a 
summertime.
    The--other than that background, I did research in 
theoretical physics. And, following that, I left the academia 
and entered the private sector. I started as a technical 
project manager, then grew through a series of positions, and, 
ultimately, to run the company, as the chief operating officer, 
and then the company was sold. The company was called SD 
Systems Corporation. We used to call it SDX. It started as a 
small business. When I joined, it had about ten people, and I 
managed half of those; and then it grew to a substantial size, 
about a thousand people, or so. Our work was with NASA and NOAA 
and FAA and a lot of different government agencies around town. 
It was sold to Hughes Aircraft, so I moved over and became a 
part of a much larger organization, and part of my 
responsibility and challenge, if you will, was to take a 
company that was privately held, and become a part of a much 
larger organization--very large--aerospace and defense 
corporation. And when the business of Hughes Electronics was 
sold to Raytheon, I moved over to Raytheon Corporation and 
managed a large division of Raytheon Corporation.
    So, that's been my background, in technical research, as 
well as technical management and general management.
    The Chairman. Well, that's wonderful. You're to be involved 
now in an area of transportation that is fairly important to my 
own state. We have enormous transportation challenges--cold-
weather temperatures, distance, the size of our state, so many 
other things, pipelines, runways. Will this group now--you are 
with the Research and Innovative Technology Administration--
will that look at ways to mitigate the effects of changing 
temperatures, new ways to deal with the changes of the climate 
system?
    Dr. Kaveeshwar. Mr. Chairman, the RITA, as you just stated, 
is a very new administration. It's--I will be the first 
administrator, as you mentioned. And I will be--if confirmed, 
look into that, and--but there will be an involvement from RITA 
to look at these kinds of problems, yes.
    The Chairman. How many staff do you expect to have there?
    Dr. Kaveeshwar. The way RITA is configured now, we have the 
Volpe National Transportation System Center, which is in 
Boston, so--it has a staff of somewhere in the neighborhood of 
500 or so. The Bureau of Transportation Statistics would also 
be part of RITA, because part of the responsibility is to do 
transportation statistics, and research and reporting. And 
then, in addition to that, the immediate staff will be--well, 
there is a university research--what you call technology 
centers--will also be part of this organization, and the Office 
of Intermodalism. So, all together there will be about 850 
people.
    The Chairman. Sounds like they're mostly East-Coast 
oriented. Is that right?
    Dr. Kaveeshwar. No, we have some people in Alaska, as well, 
and we are--I understand that there is some things that we are 
working on to--with the FAA Administrator--that will get 
resolved. If I get confirmed, I'll work with your staff.
    The Chairman. Senator Inouye?
    Senator Inouye. Thank you, Mr. Chairman.
    As you've noted, you'll be the first Administrator of RITA, 
so you would have a wide latitude in shaping the goals and 
policy of this new agency within DOT. What are your highest 
priorities?
    Dr. Kaveeshwar. When I had the conversation with Secretary 
Mineta, one of his charges in--first when he recommended that 
the Congress form this agency, and when he--what he told me was 
that he would like to see this agency coordinate the research 
that's going--R&D work that's going on across DOT. So, my 
highest priority is really twofold. One is to identify the 
challenges that face the--America's transportation system, the 
identification, itself; and then, second, to coordinate the 
research that DOT is undertaking. It's in the neighborhood of 
about a billion dollars a year. And this agency, RITA, is not 
the one that's going to be doing it. All the modal 
administrators will be doing--but I would be involved in 
coordinating that.
    Senator Inouye. I had an opportunity to ride on the so-
called Bullet train in Japan, and there's a similar one in 
Beijing. Do you think we'll ever have something like that here 
in the United States?
    Dr. Kaveeshwar. Senator, that's certainly not speaking as 
a, if confirmed, Administrator of RITA, but if I have to, as a 
private citizen, and if I have to guess, I believe we will.
    Senator Inouye. Well, there's been no movement, until now.
    Dr. Kaveeshwar. That's correct.
    Senator Inouye. But will your RITA participate in 
developing such a train?
    Dr. Kaveeshwar. One of the other charges that Secretary 
Mineta has talked to me about, and--when they created the 
RITA--is that the word ``innovative technology,'' although this 
Bullet train you mentioned is not necessarily innovative, in 
the sense that it is already functioning in a couple of 
places--but the answer is yes.
    Senator Inouye. Mr. Chairman, I'm convinced he'll make a 
good administrator.
    The Chairman. Yes, we welcome you, and welcome this new 
innovative entity in transportation. I was sitting here 
thinking of a friend of mine, now deceased, who was spending 
his time trying to figure out how to use helium-filled balloons 
to lift containers off the ground and propel them, with some 
sort of an engine, so that they would move throughout the 
country without being on the roads. Somewhere, there's an 
answer to this--to all this congestion that we've got.
    Dr. Kaveeshwar. Absolutely.
    The Chairman. So, we look forward to working with you, and 
welcome you to this entity--this agency.
    That will complete our hearing today. We'll take up these 
nominations at the next--I think it's next Thursday.
    Thank you very much.
    Dr. Kaveeshwar. Thank you.
    [The prepared statement and biographical information of Dr. 
Kaveeshwar follows:]

Prepared Statement of Dr. Ashok Kaveeshwar, Nominee to be Administrator 
   of the Research and Innovative Technology Administration (RITA), 
                      Department of Transportation
    Thank you Chairman Stevens, Senator Inouye and other distinguished 
Members of the Committee.
    It is a tremendous honor to have been nominated by President Bush 
and to appear before you today. If confirmed, I look forward to joining 
Secretary Mineta and his superb leadership team at the Department of 
Transportation, and to working closely with you and your staff.
    I am very happy that my wife, Tuti, and our son, Jaya, are here 
with me today, and with your indulgence, I would like to recognize and 
express my appreciation to them. I know my 93-year old father in India, 
Gajanan Kaveeshwar, whom we call Bhau, is thrilled beyond imagination. 
Unfortunately, because of his advanced age and great distance, he 
cannot join us today. I would also like to recognize my late and 
beloved mother, Kaki, who passed away recently. In addition, I would 
like to acknowledge my many other family members and friends, some of 
whom are here today.
    Although there are commonalities in every immigrant's journey 
toward the American dream, each path is unique. In 1961, I left my 
hometown of Indore in central India after receiving a one-year 
scholarship to Fredonia State College in upstate New York. I'm here 
before you today, because of the goodwill of people like Bob McLarin, 
whose family took me in for a summer, and Professor Stanley Zarlock, 
who took a special interest in me and encouraged me to pursue a Ph.D. 
in Physics. Bob McLarin, Professor Zarlock, and millions of Americans 
like them, represent the special character and spirit of this nation 
that makes the American dream a reality for so many.
    Mr. Chairman, Members of the Committee, I come before you today as 
President Bush's nominee to be the first Administrator of the 
Department of Transportation's Research and Innovative Technology 
Administration (RITA).
    It is a great honor to be asked to serve in this capacity. As 
envisioned by Secretary Mineta and enacted by Congress through last 
year's passage of the Norman Y. Mineta Research and Special Programs 
Improvement Act, RITA is the Administration primarily dedicated to 
Research, Development and Technology coordination throughout DOT. 
Hence, by its very nature, RITA will have a cross-modal focus that will 
ensure that all RD&T investments are effective and directly tied to 
DOT's strategic goals.
    RITA's mission is to identify and facilitate solutions to the 
challenges and opportunities facing America's transportation system.
    I believe my background in academic research and in industry make 
me well suited to carry out the responsibilities of RITA. I began my 
professional career as a researcher in theoretical physics. In 1974, I 
left academia to join a small company as a technical project manager 
and then progressively rose through the ranks and ultimately became the 
chief operating officer. The company provided research and technology 
development to a wide range of Federal Government agencies. In 1991, 
the company was acquired and I successfully managed our transition from 
an independent company to an integrated member of a large aerospace and 
defense corporation. This varied background--from technical research to 
managing a large organization--provides that combination of technical 
and leadership skills that will allow me to successfully lead RITA and 
to achieve its goals.
    Mr. Chairman, Members of the Committee, if confirmed, I look 
forward to working with you, others in the Administration, DOT's 
stakeholders in the private and public sectors, and with RITA's capable 
and talented staff to fulfill the vision that resulted in the creation 
of RITA.
    Again, I thank you for the opportunity to appear before you today, 
and I look forward to answering any questions you may have.
                                 ______
                                 
                      a. biographical information
    1. Name (Include any former names or nicknames used):

        Name: Ashok G. Kaveeshwar.
        Former Name: Vishwanath Gajanan Kaveeshwar.

    2. Position to which nominated: Administrator of the Research and 
Innovative Technology Administration, Department of Transportation.
    3. Date of Nomination: May 25, 2005.
    4. Address (List current place of residence and office addresses):
        Residence: Not released to the public.
        Office Address: Orange Technologies, Inc., 400 Professional 
        Drive Suite 420, Gaithersburg, MD 20879.
    5. Date and Place of Birth: January 8, 1942--Khandwa, M.P., India.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Spouse: Hariastuti Kaveeshwar
        Place of Employment: N/A
        Son: Jaya Ashok Kaveeshwar
        Age: 30

    7. List all college and graduate degrees. Provide year and school 
attended.

        B.S. major in Physics, Holkar College, Indore, M.P. India, 
        1961.
        Ph.D. in Physics, State University of New York at Buffalo, 
        Buffalo, NY, 1968.

    8. List all management-level jobs held and any non-managerial jobs 
that relate to the position for which you are nominated.

        Position: Senior Research Fellow.
        Location: SUNY at Buffalo, Buffalo, New York.
        Period: 1968-1973.
        Responsibilities: Research in theoretical atomic physics, under 
        grants from the Atomic Energy Commission and its successor 
        agencies.

        Position: Executive Vice President and Chief Operations 
        Officer.
        Company: ST Systems Corporation (STX), Lanham, MD.
        Period: 1974-1991.
        Responsibilities: Started in 1974 as a technical project 
        manager, then progressively moved to a series of technical and 
        management positions, including: Program Manager, Division 
        Manager, and Vice President. Eventually became the Executive 
        Vice President and Chief Operating Officer of the company in 
        1984. The corporation provided research and engineering support 
        to a wide range of Federal Government agencies. Major customers 
        included NASA, NOAA, FAA, EPA, DoD. Major projects included 
        Oceanic Air Traffic Control Systems, VHF Direction Finder 
        Systems, Information Technology, Remote Sensing, and Global 
        Climate Data Set Development.

        Position: President.
        Company: Hughes STX Corporation, subsidiary of Hughes 
        Electronics Corporation.
        Period: 1991-1998.
        Responsibilities: Hughes acquired STX in September of 1991. 
        Successfully transitioned the company from a small company 
        culture to be a part of a very large Aerospace and Defense 
        Corporation. Revenue growth was from $70 million in 1991 to 
        over $150 million in 1997. The major focus of the organization 
        continued along the same lines as that of STX.

        Position: Senior Vice President.
        Company: Raytheon Technical Services Company.
        Period: 1998-2002.
        Responsibilities: Raytheon acquired the Defense business of 
        Hughes Electronics in 1998. Appointed as the Senior Vice 
        President and Division Manager of Scientific and Technical 
        Services Division in 1998. Managed over $450M in revenue and 
        over 4,000 employees scattered around the world including the 
        Antarctic continent. Supported major research and technology 
        programs for FAA, NASA, NOAA, NSF, and DoD.

        Position: Chief Operating Officer.
        Company: Orange Technologies, Inc.
        Period: 2002-present.
        Responsibilities: Orange Technologies provides technical 
        training and Information Technology services to various federal 
        and commercial industries. In addition, Orange Technologies, 
        through its CADPIPE software, is a world leader in 3D modeling 
        for industrial and commercial markets. Responsible for all 
        aspects of running Orange Technologies and positioning the 
        company for future growth.

    9. List any advisory, consultative, honorary or other part-time 
service or positions with federal, state, or local governments, other 
than those listed above, within the last five years: None.
    10. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational or other institution within the last five years.

        Position: Senior Vice President.
        Company: Raytheon Technical Services Company, Reston, VA.
        Period: 1998-2002.

        Position: Chief Operating Officer.
        Company: Orange Technologies, Inc., Gaithersburg, MD.
        Period: 2002-present.

        Position: Director.
        Organization: Wolf Trap Foundation.
        Period: 1999-2005.

        Position: Vice Chairman.
        Organization: Wolf Trap Foundation.
        Period: 2003-2004.

        Position: Chairman, Dean's Advisory Council.
        Organization: College of Arts & Sciences, University at 
        Buffalo.
        Period: 1992-2004.

        Position: Trustee.
        Organization: UB Foundation.
        Period: 2005-present.

        Position: Member, Advisory Council.
        Organization: Northern Virginia Campus, GW University.
        Period: 1999-2002.

    11. Please list each membership you have had during the past ten 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age or handicap.

        Wolf Trap Foundation, Vienna, VA
        Donor.

        Congressional Country Club, Bethesda, Maryland
        1997-present, Member.

        Marathi Kala Manlal, Maryland
         1976-present, Member.

        Cato Institute
        Donor.

        American Meteorological Society
        1990-2003, Member.

        National Space Club
        1980-2002, Corporate Member.

        Mercatus Center, George Mason University
        Donor.

    12. Have you ever been a candidate for public office? If so, 
indicate whether any campaign has any outstanding debt, the amount, and 
whether you are personally liable for that debt: No.
    13. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years.

        2/29/96 ($1,000.00) Hughes Electronics Corporation Active 
        Citizenship Fund.
        8/8/96 ($1,000.00) Friends of Larry Pressler.
        6/12/98 ($250.00) Tom Davis for Congress.
        8/5/98 ($500.00) Raytheon Company PAC.
        10/19/00 ($500.00) RNC.
        10/29/99 ($750.00) Raytheon Company PAC.
        5/20/99 ($250.00) Tom Davis for Congress.
        10/7/00 ($1,000.00) Lazio 2000, Inc.
        3/16/00 ($500.00) Friends of George Allen.
        10/21/00 ($500.00) Friends of George Allen.
        6/2/01 ($500.00) RNC.
        4/17/02 ($500.00) RNC.
        11/10/02 ($1,000.00) USINPAC.
        1/22/03 ($500.00) RNC.
        2/25/04 ($1,000.00) RNC.
        8/31/04 ($2,000.00) Bush/Cheney Reelection Committee.
        4/27/05 ($1,000.00) RNC.

    14. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals and any other special recognition 
for outstanding service or achievements.

        Full Scholarship to attend Fredonia State College, Fredonia, NY 
        for one year in 1961-1962.

        Research Fellowship for graduate work in physics at the State 
        University of New York at Buffalo, 1962-1968.

        Distinguished Alumni Award from College of Arts & Sciences, 
        University at Buffalo, Buffalo, NY, in 2005.

    15. Please list each book, article, column, or publication you have 
authored, individually or with others, and any speeches that you have 
given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        1. ``Fully Coupled Hartree-Fock Calculations of the Refractive 
        Index, Dynamic Polarizabilty, and Verdet Coefficients of 
        Helium, Beryllium and Neon'' V.G. Kaveeshwar, Kwong T. Chung, 
        R.P. Hurst, Phys. Rev. Vol. 172,35 (1968).

        2. ``Frequency-dependent dipole shielding factors'' V.G. 
        Kaveeshwar, A. Dalgarno, and R.P. Hurst, J. Phys.B 
        (atom.Molec.Phys) Vol. 2 (1969).

        3. ``Dynamic Polarizabilities, Refractive Index, Verdet 
        Coefficients, and Shielding Factors of Closed-Shell Atoms and 
        Ions'' V.G. Kaveeshwar, Ph.D. Dissertation, SUNY at Buffalo 
        (1969).

        4. ``Hartree-Fock Theory of Third-Harmonic and Intensity 
        Dependent Refractive-Index'', R. Klingbeil, V.G . Kaveeshwar, 
        and R.P. Hurst, Phys. Rev. A Vol. 4 (1971).

        5. `` Third Harmonic Coefficient if Li+'', R. Klingbeil, V.G. 
        Kaveeshwar, and R. P. Hurst ,Phys. Rev. A Vol. 9 (1974).

        6. ``Frequency-dependent electric dipole properties of 
        Magnesium'', R. Klingbeil, V.G. Kaveeshwar, J. Chem. Phys., 
        Vol. 62 (1975).

        7. Linear time-dependent electric dipole properties of Argon'', 
        V.G. Kaveeshwar, R. Klinbeil, and R.P. Hurst, Phys. Rev. 14,882 
        (1976).

        8. ``Total Ozone Determination from the Backscattered 
        Ultraviolet (BUV) Experiment'', K.F. Klenk, P.K. Bhartia, A.J. 
        Fleig, V.G. Kaveeshwar, R.D. McPeters, and P.M. Smith, Journal 
        of Applied Meteorology, Vol. 21, No. 11 (1982).

        9. ``Passionate Advocate . . .'', Blair Boone, UB to-day, 
        Spring/Summer 2002, A Publication of the UB Alumni Association.

    16. Please identify each instance in which you have testified 
orally or in writing before Congress in a non-governmental capacity and 
specify the subject matter of each testimony: N/A.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers.

        I continue to receive compensation from various Raytheon 
        programs, including the Deferred Compensation Program, Excess 
        Savings Program, Qualified Pension, and a Non-Qualified 
        Pension.

    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation or practice with any business, 
association or other organization during your appointment? No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

        Please refer to General Counsel's Opinion Letter.

    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 5 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None.
    5. Describe any activity during the past 5 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.

        In case of potential conflict, I will recuse myself from the 
        matter at hand and complete the necessary paperwork to document 
        such recusal.

                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? No.
    2. Have you ever been investigated, arrested, charged, or held by 
any federal, state, or other law enforcement authority of any federal, 
state, county, or municipal entity, other than for a minor traffic 
offense? No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? None.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere ) of any criminal violation other than a minor traffic 
offense? No.
    5. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
    6. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion or any 
other basis? No.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect congressional witnesses and whistle blowers from reprisal 
for their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    [Whereupon, at 3:50 p.m., the hearing was adjourned.]
                            A P P E N D I X

  Response to Written Questions Submitted by Hon. Daniel K. Inouye to
                        Edmund S. ``Kip'' Hawley
    Question 1. Many on the Committee believe that TSA must do a better 
job of deploying new technologies at airports. TSA has certified Next-
Generation EDS technology that is far smaller and less expensive than 
the current generation of screening systems. And I am told a 
significant number of airports have asked that TSA provide them with 
these Next-Generation EDS systems because for their situation they 
would: (1) enhance security, (2) are less costly to operate, and (3) do 
not require the costly construction of baggage systems. This seems like 
a win/win situation since some airports want Next-Generation EDS, and 
their deployment will save taxpayer dollars. Will you commit to move 
quickly to follow Congress's direction and expeditiously deploy these 
Next Generation systems?
    Answer. If confirmed, I will be forward leaning in exploring the 
best ways to maximize checked baggage screening effectiveness and 
throughput. TSA will continue to devote the necessary resources to 
ensure there is 100 percent checked baggage screening at all of the 
nation's commercial airports and exploring the universe of emerging 
technologies.
    It is my understanding that TSA's next generation research and 
development efforts have yielded two new products during FY 2005. The 
Reveal CT-80 is the first new product and is a smaller less expensive 
EDS unit, which may be an appropriate solution for airports that have 
been reliant on explosives detection trace (ETD) units exclusively. The 
use of EDS, rather than ETD, increases efficiency and streamlines the 
processing of bags. During the ongoing pilot tests, TSA will be able to 
determine the level of staffing that will be required to support 
operation of the EDS versus what is currently required to support other 
technology. The other product that has been certified is the Analogic 
6400, which is an upgrade kit for the L-3 eXaminer 6000 EDS unit, of 
which TSA has over 600 currently deployed. This system upgrade will 
incrementally increase the baggage throughput capacity for the L-3 6000 
and provide improved image resolution tools, resulting in fewer bags 
requiring secondary screening.

    Question 2. Of the projects TSA is running, the TWIC project has 
been a cause of concern. TSA awarded the prototype contract last August 
for $12 million and announced that TSA would issue 150,000 TWIC cards 
at 40 sites across the country over a 7-month period concluding in 
March 2005. It is now June; CQ reported on April 21, that the contract 
had more than doubled in size to $24.4 million; and other news reports 
indicate that only a couple thousand TWIC cards have been issued and at 
less than half the sites anticipated. How is it that the prototype 
contract has managed to double in size while delivering so much less, 
1/100th, than originally promised?
    Answer. I share your concerns regarding the TWIC program. It is my 
understanding that additional costs you cited were attributable to new 
requirements that emerged after the contract award. Specifically, TSA 
re-evaluated the requirements and re-aligned them after the release of 
Homeland Security Presidential Directive-12 (HSPD-12) a new government 
directive regarding credentials which was released on August 27, 2004--
two weeks after the Prototype Phase contract was awarded. Changes 
included procurement of standards-based biometric readers, obtaining 
card production and system hosting services (previously planned to be 
government-furnished), and extending the contract's period of 
performance to ensure continuity of operations for stakeholders 
involved in the prototype phase. As a result of these scope changes, 
the contract baseline was revised to reflect the updated cost estimates 
and period of performance.
    Despite the low number of enrollees, TSA believes that the TWIC 
prototype successfully met its objectives. Given that participation in 
the prototype phase was largely voluntary, it was difficult to predict 
how many individuals would enroll. However, TSA was appreciative of 
those who willingly participated. As a result of their volunteer 
participation, the transportation industry and TSA learned valuable 
lessons that will help guide the program's future as implementation 
moves forward.

    Question 2a. What is TSA doing to get the project on a more solid 
footing?
    Answer. It is my understanding that TSA is currently analyzing the 
results of the prototype phase which ended on June 30, 2005, and will 
be making recommendations to DHS with respect to implementation.
    I understand there are policy decisions that need to be made before 
TSA can move the TWIC Program into an implementation phase. These 
decisions include an appropriate cost (fee) for the credential and 
background checks, the immediate scope of the program, and the 
procedures for enrollment and card issuance.
    If confirmed, I will make it a top priority to engage the 
Department in the issues and move the program forward.

    Question 3. The TWIC Prototype Project was awarded August 10, 2004, 
and was supposed to run for a 7-month period ending March 10, 2005. 
Because of delays in the program, TSA announced in March that a 3-month 
extension was granted for it, which means that it should have wrapped 
up last Friday, June 10. Has the prototype concluded and what has TSA 
accomplished with it?
    Answer. It is my understanding that TSA is currently analyzing the 
results of the prototype phase which ended on June 30, 2005, and will 
be making recommendations to DHS with respect to implementation.

    Question 3a. What are TSA's plans for procurement of the next phase 
of the TWIC?
    Answer. It is my understanding that TSA anticipates procurement for 
the next phase of the TWIC to be based on full and open competition, 
subject to Department approval.

    Question 4. Regarding the troubles with the TWIC program, it was 
very disturbing to read in the May 23, 2005 issue of Washington 
Technology. They reported the contract for TWIC has doubled in size; it 
is behind schedule; and it has failed to deliver more than a couple 
thousand of the 150,000 cards that were supposed to be issued. 
Specifically, the story quoted TSA as saying that the main reason for 
the delays and cost overruns was that `` TSA officials had modified the 
TWIC schedule to take into account biometric standards mandated by 
Homeland Security Presidential Directive-12 (HSPD-12), which came in 
late August 2004, days after DHS awarded the TWIC contract to 
BearingPoint.'' This statement is puzzling on a number of fronts: HSPD-
12 establishes a Policy for Common Identification Standard for Federal 
Employees and Federal Contractors. That's it. No commercial truck 
drivers, no port workers, no airport baggage handlers and no rail yard 
workers. But it is this later group that is to be issued TWIC cards. So 
why is it that more than 3 years after September 11, the TSA would 
delay a major project because of a new directive that does not even 
apply to the TWIC program?
    Answer. I share your concerns regarding the TWIC program and, if 
confirmed, will make it a priority to move the program forward. It is 
my understanding that while HSPD-12 is not specifically directed at the 
TWIC program, TSA believed it would be short-sighted to ignore this 
directive and new government-wide requirements regarding credentials.

    Question 5. There are no biometric standards, which exist today as 
a result of HSPD-12. NIST has released a draft standards document (NIST 
SP 800-76) which proposes what biometrics would be used for cards 
issued to Federal Employees and Contractors, however, both NIST and 
industry have agreed that there are numerous problems with the draft, 
and a large portion of the draft is certain to change by the time that 
these problems are resolved. With no usable biometrics standard that 
has yet emerged from HSPD-12, what standard is TSA building the program 
to?
    Answer. It is my understanding that the TWIC program is based on 
the newly released biometric standards issued by the American National 
Standards Institute (ANSI)/International Committee for Information 
Technology Standards (INCITS), including standards for finger prints, 
iris, face recognition and other biometric inter-operability standards.

    Question 6. CQ reported on April 21, that BearingPoint was not just 
hired to build the TWIC system for TSA, it was also hired under a 
completely separate contract to also help manage the program for TSA. 
Moreover, as part of these management responsibilities, BearingPoint 
actually was hired to write large portions of the RFP for the TWIC 
procurement and determine many of the TWIC's technical requirements. 
According to the CQ article, BearingPoint's project management 
responsibilities are ``to determine if the project is on schedule, 
within budget, proceeding in conformance with approved plans and 
specifications, and is being implemented efficiently and effectively.'' 
In other words, they've been hired to evaluate the performance of 
another team of staff from their own company. Is TSA concerned that 
with such a tight system of checks and balances within the TWIC program 
that the contract has ballooned to more than twice its awarded size and 
still is under-delivered?
    Answer. It is my understanding that BearingPoint submitted an 
Organization Conflict of Interest (OCI) Mitigation Plan containing 
measures and procedures to prevent a conflict of interest in performing 
both Prototype and Project Management Office support work related to 
the same project. This plan was accepted by TSA and subsequently 
reviewed by the Federal Aviation Administration's Office of Dispute 
Resolution for Acquisition (ODRA), which found it acceptable and 
reasonable. TSA monitors compliance with the OCI Mitigation Plan on an 
ongoing basis.

    Question 6a. Is TSA taking any steps to avoid potential conflicts 
of interest on contracting issues in the future?
    Answer. It is my understanding that through the acquisition 
planning process, as required by the TSA Acquisition Planning Guide, 
potential OCI issues are addressed to ensure conflicts of interests are 
appropriately avoided or mitigated. In several cases, TSA has 
proactively taken steps to address similar issues by revising 
acquisition strategies to avoid OCIs. In these cases, the contractors 
have been issued letters notifying them that they cannot provide 
program management support and implementation services. Further, TSA 
solicitations include OCI provisions which require the contractors to 
identify potential OCIs and to recommend a mitigation plan.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Barbara Boxer to
                        Edmund S. ``Kip'' Hawley
    Question 1. It has been almost 4 years since the 9/11 terrorist 
attacks, and over a year has gone by since terrorists exploded bombs 
aboard commuter trains in Madrid. Assuming you are confirmed to be the 
next TSA Administrator, what specific steps will you do to ensure that 
all modes of transportation, transit, rail, maritime, and aviation are 
secure?
    Answer. The diversity and expansiveness of the transportation 
system presents inherent security challenges. Each of the major 
transportation modes has unique characteristics, operating models, 
responsibilities and stakeholders. The transportation modes also differ 
with respect to the level of Federal involvement. Traditionally, the 
Federal Government has been much more actively engaged in the security 
aspects of the aviation and maritime modes of transportation. The 
government has played a more limited role in surface transportation 
security due to the extent of state and local government, and private 
sector ownership, and the general openness and breadth of these 
systems.
    For this reason, the Federal Government must focus resources on the 
basis of consequence, threat and vulnerability assessments, and the 
prioritization of risks. This concept is the foundation of a risk-
based, threat-managed methodology which allows the Federal Government 
to implement appropriate layers of security across all modes
    Under DHS leadership, TSA is responsible for (1) assessing risk to 
the system across a changing array of threats, (2) sharing threat and 
risk information with transportation partners and stakeholders (public 
and private), (3) establishing consistent national transportation 
security standards across all modes, (4) verifying compliance with 
those standards, and (5) in the event of a transportation security 
incident, ensuring rapid restoration of service and public confidence.
    The success of transportation security rests on the close 
partnership between DHS and transportation stakeholders. While clearly 
private investment in security is expected, the threat-based risk-
managed approach, complemented by performance based standards--which 
permits achievement of security standards within an owner's business 
model--coupled with appropriate security grants, mitigates the national 
cost borne by the private stakeholders.
                                 ______
                                 
 Response to Written Questions Submitted by Hon. Frank R. Lautenberg to
                        Edmund S. ``Kip'' Hawley
    Question 1. President Bush refuses to budget any funding for new 
EDS equipment, so only nine airports of the 430 will get newer, faster 
equipment. He also claims that wait lines and security levels will be 
no worse in 2006. As head of TSA, how will you guarantee this?
    Answer. I firmly believe that the Transportation Security 
Administration (TSA) should continue to devote the necessary resources 
to ensure there is 100 percent checked baggage screening at all of the 
nation's commercial airports, and this will continue whether the 
equipment configuration is stand-alone or in-line. While as a general 
rule in-line systems are more efficient than other kinds of explosives 
detection systems, it is not appropriate for the configuration at every 
airport. While there are certain security benefits that come from the 
use of in-line systems, airports without such systems are not 
vulnerable. Each airport has its own TSA-approved Airport Security Plan 
(ASP) designed to meet its individual needs.
    However, in-line explosives detection systems (EDS) are deployed as 
a cost effective screening process at many of the higher volume 
airports. TSA is developing criteria that will result in a 
comprehensive review in which TSA will identify the universe of 
airports that may benefit from an in-line EDS system or other physical 
modification, as well as identify project costs and savings that could 
be achieved through minimizing staffing requirements and maximizing 
technology capabilities.
    TSA is also operationally testing a newly certified EDS unit--the 
Reveal CT-80--that should provide TSA with an alternative to in-line 
systems for some airports. This new unit is much smaller and will be 
less expensive than the current EDS units. At certain airports, the 
Reveal CT-80 may be appropriate to install as stand alone units within 
and/or immediately behind airline ticket counters, which will 
necessitate lobby modifications rather than behind-the-scenes conveyor 
system modifications. TSA does not anticipate that this new unit will 
be a viable solution for all airports due to throughput capabilities; 
however, it will provide an alternative for consideration in future 
planning.
    TSA's Fiscal Year 2005 budget for EDS installation is $473 million, 
and is being allocated in the following categories:

  <bullet> Support for the current Letters of Intents (LOIs)--$310 
        million
  <bullet> Funding for support services contracts--$52.64 million
  <bullet> Funding for large hub airports--$66.61 million
  <bullet> Funding for medium hub airports--$25 million
  <bullet> Funding for small and non-hub airports--$18.75 million

        * Funding for equipment purchase is a separate budget item, and 
        it is funded at $180 million for FY 2005.

    The President's Fiscal Year 2006 budget request includes $394 
million for EDS deployment. Of this amount, $260.5 million is dedicated 
to supporting the eight existing Letters of Intent (LOI) airports. Of 
the $260.5 million, $240.5 million is for direct reimbursements to 
airports and $20 million is for equipment and installation. 
Additionally, the request includes $134 million to purchase and install 
Explosives Detection Systems and Electronic Trace Detection equipment 
at non-LOI airports.
    If confirmed, I will make it a priority to ensure that the 
technology necessary to ensure security at our nation's airports is 
deployed using available resources. I would also continue TSA's work on 
ensuring that the traveling public is not overburdened with lengthy 
wait times without compromising security. Airports would continue to 
collect and report wait time data, to allow TSA to monitor the customer 
experience and to assist TSA in making improvements to checkpoint 
configurations and appropriate staffing levels. Wait times, which on 
average were already low, have decreased since collection began in 
earnest in January of 2004. When wait times during 2004 and 2005 are 
compared monthly, they are found to be lower for 2005 than the previous 
year. These decreases are especially dramatic considering the increase 
in passenger throughput from 2004 to 2005.

  <bullet> The national average wait time for 2005 has decreased by 
        nearly 10 percent or half a minute since 2004.

  <bullet> The national average peak wait time for 2005 has decreased 
        by almost 15 percent or more than one and a half minutes since 
        2004.

  <bullet> Passenger throughput during 2005 has increased nearly 7 
        percent compared to 2004.

    In addition, it is important to note that TSA found in its annual 
customer service survey that between 80 and 95 percent of passengers 
gave positive responses when asked about seven aspects of the federal 
security screening process, which included thoroughness and courtesy of 
screeners as well as confidence in TSA's ability to keep air travel 
secure. In addition, the survey found the TSA is meeting or exceeding 
passenger expectations for security line wait times.

    Question 2. The President asked for $8 million for rail security 
next year. With such a small amount of money, how do you expect to 
safeguard our nation's rail systems after terrorist acts like the 
Madrid bombings or the attack in Russia on Sunday?
    Answer. If confirmed, I will re-evaluate budget priorities in light 
of the recent attacks in London. As you know, the threat level was 
raised from Code Yellow--or Elevated--to Code Orange--or High--targeted 
only to the mass transit portion of the transportation sector. This 
includes regional and inter-city passenger rail, subways and 
metropolitan bus systems. Ensuring that our nation's transportation 
systems are secure must be accomplished through effective partnering 
between appropriate federal, state, local and private industry 
entities. And of course, DHS is charged with responsibility for working 
to protect all modes of transportation, but it has consistently held 
that this responsibility must be shared with federal, state, local and 
private industry partners, many of whom were already in the business of 
providing security for their particular piece of the transportation 
puzzle.
    TSA, in support of the DHS Office of State and Local Government 
Coordination and Preparedness (SLGCP), has provided transportation 
security subject matter expertise in support of the UASI and other 
competitive grant programs SLGCP administers for security in surface 
modes of transportation including ports, trucks, busses, rail (freight 
and passenger), and mass transit. The President's FY 2006 budget for 
the Department would also establish a consolidated Targeted 
Infrastructure Protection Program (TIPP), funded at $600 million, for 
an integrated, discretionary grant program to better supplement state, 
local, and private sector infrastructure protection efforts based on 
threat, vulnerability, and criticality. TIPP will allow greater 
flexibility to the Secretary to allocate funds according to the 
greatest risk so that we may best enhance the ability of the owners and 
operators of key transit systems and port assets to prevent and respond 
to transportation security incidents. Since FY02, DHS has awarded close 
to a billion dollars in grants for these modes--$315M in FY05 alone.
    In addition to TIPP, the President's FY 2006 budget recognizes the 
need for resources in this sector by providing public transportation 
grants, outside of Urban Area Security Initiative (UASI) grants, which 
cover such programs as rail/mass transit inspectors, use of canine 
explosive detection teams in mass transit, intercity bus security 
improvements, hazardous materials truck tracking, and Highway Watch, 
among others. If confirmed, I will be an active participant, among many 
in the Administration, in seeking to optimize the use of federal 
resources to the highest risks and security needs.

    Question 3. Only 5 percent of the 9 million ocean shipping 
containers that come into our country are actually inspected at ports. 
What will you do to fix this lax security at our ports?
    Answer. The Department of Homeland Security (DHS) was certainly 
established to coordinate all of the efforts of various agencies in 
securing our homeland. In fulfilling this mission, it builds on the 
strengths and expertise of all of the agencies that work with each mode 
of transportation.
    The U.S. Coast Guard (USCG), of course, is the lead agency for 
maritime security issues due to its decades of experience and powerful 
assets focused on securing the maritime domain. Within this framework, 
the Transportation Security Administration (TSA) supports the USCG in 
the execution of certain responsibilities where leveraging of TSA's 
expertise may be appropriate, including the development of maritime 
passenger screening standards and transportation worker credentials.
    U.S. Customs and Border Protection (CBP) is the lead entity within 
DHS for execution of cargo container security inspections in the 
international shipping environment. However, recognizing the intermodal 
nature of cargo shipments, the Border and Transportation Security (BTS) 
Directorate has been delegated authority and responsibility for 
developing a secure system of transportation for intermodal cargo 
shipments and container security performance standards.
    BTS is supported by both CBP and TSA in the execution of these 
responsibilities. If confirmed, I will certainly encourage TSA to 
continue to play a pivotal role in this area.
    I understand TSA has collaborated with U.S. CBP and USCG to conduct 
a program analysis of all current cargo security programs in all modes 
both domestically and internationally under the leadership of BTS. The 
goal of this analysis was to investigate the various cargo security 
programs within DHS and to measure their effectiveness.
    Another example of interagency cooperation is Operation Safe 
Commerce. Operation Safe Commerce is an interagency program that tracks 
cargo from its international point of origin to its final domestic 
point of destination through multiple modes of transportation. TSA, 
CBP, and the Department of Transportation (DOT) acted as co-chairs of 
the program with TSA serving as the National Coordinator. Further 
representatives from USCG, the Department of Defense, the Department of 
State, and the Department of Commerce are also represented on the 
program's Executive Steering Committee.
    Additionally, TSA and USCG has assisted the Department's Office of 
State and Local Government Coordination (SLGCP) in evaluating grant 
applications for the disbursement of port security funds appropriated 
by Congress. TSA has provided transportation security subject matter 
expertise in support of the Urban Area Security Initiative (UASI) and 
other competitive grant programs SLGCP administers for security in 
surface modes of transportation including ports, trucks, busses, rail 
(freight and passenger), and mass transit. Since Fiscal Year 2002, DHS 
has awarded close to a billion dollars in grants for these modes--$315M 
in FY05 alone. With certain limitations, some of these grant funds have 
been used for capital security improvements by the recipients.
    It is my understanding that the President's FY 2006 budget for the 
Department would establish a consolidated Targeted Infrastructure 
Protection Program (TIPP), to be administered by SLGCP, which will 
allow greater flexibility to the Secretary to allocate funds according 
to the greatest risk so that we may best enhance the ability of the 
owners and operators of key transit systems and port assets to prevent 
and respond to transportation security incidents.
    TIPP would consolidate grants to protect critical national 
infrastructures such as seaports, mass transit, railways, and energy 
facilities into a single, comprehensive program based on need, risk, 
and consistency with national priorities. The Transportation Security 
Administration (TSA) is supportive of this consolidation and believes 
that such prioritization will ensure that redundancies are minimized 
and that funds are directed to the best use. TSA staff will continue to 
provide SLGCP with subject matter expertise for transportation 
security.
                                 ______
                                 
                         Air Carrier Association of America
                                      Washington, DC, June 14, 2005
Hon. Ted Stevens,
Chairman,
Senate Committee on Commerce, Science and Transportation,
Washington, DC.

Dear Mr. Chairman:

    On behalf of the members of the Air Carrier Association of America 
and the communities we serve, we fully support the nomination of Edmund 
S. Hawley to be Assistant Secretary of Homeland Security (TSA). 
Although the Transportation Security Administration and the Department 
of Homeland Security have made important adjustments to the nation's 
security program, they still face enormous challenges. We recognize 
that more needs to be accomplished. For this reason, it is important to 
have someone in the Assistant Secretary position who is familiar with 
aviation and how best to accomplish government objectives. We believe 
that Mr. Hawley is that person since, as a member of the Federal 
Aviation Administration Air Traffic Services Committee, he is familiar 
with the nation's airline system. He has also worked to create unique 
industry/government partnerships which would be important as we address 
all security issues.
    The continued enhancement of airport security is particularly 
important for low-fare carriers and smaller markets. As these carriers 
expand, local job growth and economic development will increase.
    For all of these reasons, we fully support Mr. Hawley's nomination 
to be Assistant Secretary of Homeland Security.
        Sincerely,
                                        Edward P. Faberman,
                                                Executive Director.
                                 ______
                                 
               National Business Aviation Association, Inc.
                                      Washington, DC, June 14, 2005
Hon. Ted Stevens,
Chairman,
Senate Committee on Commerce, Science and Transportation,
Washington, DC.

    Dear Senator Stevens:

    On behalf of the National Business Aviation Association (NBAA), I 
would like to express our strong support for the confirmation of Edmund 
S. ``Kip'' Hawley to the position of Assistant Secretary of Homeland 
Security at the Transportation Security Administration.
    Mr. Hawley's government and private sector experience uniquely 
qualifies him for this demanding and vital national Homeland Security 
position. I have had the pleasure to work closely with Mr. Hawley 
during the days and months following the tragic events of 9/11 as he 
worked diligently at the Department of Transportation with Congress and 
industry to ``stand-up'' the Transportation Security Administration 
(TSA).
    His strong organizational skills and depth of experience with 
transportation issues will provide the Transportation Security 
Administration (TSA) with strong and capable leadership. NBAA strongly 
supports his confirmation and urges the Committee to act favorably on 
his nomination.
        Sincerely,
                                                  Ed Bolen,
                                                 President and CEO.
                                 ______
                                 
                     National Air Carrier Association, Inc.
                                       Arlington, VA, June 17, 2005
Hon. Ted Stevens,
Chairman,

Hon. Daniel K. Inouye,
Ranking Member,

Senate Committee on Commerce, Science and Transportation,
Washington, DC.

    Dear Chairman Stevens and Ranking Member Inouye:

    On behalf of the National Air Carrier Association (NACA) and its 17 
member airlines, we wish to convey to you our full support for the 
President's nomination of Mr. Edmund ``Kip'' Hawley to be Assistant 
Secretary of Homeland Security for the Transportation Security 
Administration (TSA).
    Mr. Hawley has previously demonstrated in both government and in 
the private sector that he has outstanding leadership skills. The 
Nation cannot afford to leave this office vacant for long, and Kip 
Hawley is the right man for the job. We respectfully request that you 
schedule a full Committee vote on his nomination as soon as possible, 
so that the Senate may schedule a vote and promptly confirm him to this 
critical post.
    Your service to the Nation on this important issue is greatly 
appreciated.
        Sincerely,
                                          Ronald N. Priddy,
                                                         President.
                                 ______
                                 
          Prepared Statement of the Airforwarders Association
    The Department of Homeland Security and the agencies under its 
umbrella are entering a critical stage as the department continues to 
refine its role and oversight in securing America against attack. The 
Transportation Security Administration continues to evolve in its 
mission to ensure the highest level of safety in all modes of 
transportation, with particular attention to aviation security. 
Regardless of what the future holds for TSA, we believe that the 
nomination and confirmation of Edmund Hawley will have a positive 
impact on the agency in this important redefinition phase. The 
Airforwarders Association, the industry voice for air cargo companies 
and their partners, has established a close working relationship with 
the Department of Homeland Security (DHS) and Transportation Security 
Administration (TSA) and looks forward to continuing that relationship 
with Mr. Hawley as Assistant Secretary.
    Mr. Hawley has a strong background in transportation issues, 
particularly with regards to supply chain management and technological 
solutions to security issues. As the next Assistant Secretary of the 
Transportation Security Administration, he will be faced with decisions 
that will have a substantial impact on the nation's supply chain, which 
is in many ways America's economic lifeline. His experience will 
certainly aid him in pursuing security solutions without compromising 
economic vitality. His work both with the Federal Aviation 
Administration and as Vice President of Union Pacific Railroad's 
Transport Services division are equally important in the quest to make 
all modes of transportation secure.
    His management skills, particularly in this regard, will be crucial 
to guiding TSA in this transitional period. In addition to his work 
with TSA, his experience with the Department of Transportation under 
President Reagan aids in his ability to understand and manipulate 
interagency politics. This communication experience combined with his 
technological background make Mr. Hawley particularly suited for TSA's 
``high tech makeover'' as Rep. John Mica (R-FL) stated.
    Mr. Hawley has been involved with the Transportation Security 
Administration since its inception, where he was responsible for 
forming and overseeing private sector executives that helped the 
fledgling agency create its duties and meet deadlines. The early 
efficiency of the TSA has been credited to much of the collaborative 
work taken on by Mr. Hawley. We believe part of what has made the 
reforms implemented by the agency successful to date has been the 
willingness to reach out to affected industries by establishing working 
groups, discussions and seminars. Initiating a dialogue with industry 
has eased the burden of new and expansive regulations for many 
businesses that saw their concerns and questions addressed.
    Without TSA's commitment to incorporate industry concerns into 
crafting regulations, many businesses could have been severely crippled 
or even eliminated during the wave of regulations in 2001 and early 
2002. The Airforwarders Association has been honored to participate in 
a number of these working groups, both prior to and after the inception 
of DHS and TSA. We have long been a part of the Aviation Security 
Advisory Committee, which recently produced more than 40 
recommendations for improving air cargo security, many which were 
included in the newly proposed TSA rules.
    The air cargo industry is a $17 billion dollar industry that 
directly employs thousands of Americans in both small businesses and 
internationally recognized companies. A healthy air cargo industry 
ensures financial benefits to the economy as a whole, providing revenue 
for airlines, as well as cost-effective services to companies that 
depend on the rapid transport of their goods across the nation. Just as 
its health boosts other industries, impediments to the health of air 
cargo have financial ripple effects felt across most, if not all, 
economic sectors.
    Security is among the most vital components of our industry's 
health. No one is more committed to aviation security than the 
Airforwarders Association and its members. The business of 
airforwarding is built around a guarantee to provide safe 
transportation of goods in a timely manner. Without a high priority on 
security, our ability to execute those goals is compromised, harming 
both our customers and our businesses. This constant reminder of the 
high-risk environment in which we operate has taught us how to identify 
potential dangers and solutions to prevent these problems from 
occurring.
    Our relationship with TSA and DHS has shown us firsthand the value 
of a collaborative, good faith atmosphere for strengthening air cargo 
security. Stricter regulations on ``known shipper'' and increased 
oversight and inspection of cargo facilities have imposed burdens on 
the air cargo industry but were crafted in such a way to include the 
concerns of airforwarders, creating realistic and effective 
regulations. By continuing outreach efforts and a balanced regulatory 
approach, we are confident Mr. Hawley will help advance both air cargo 
security as well as the economic security of one of America's most 
critical industries.

                                  <all>

</pre></body></html>
